r

x

Case 3:15-cv-00020-JPG Document 135 Filed 02/21/20 Page 1 of 1 Page ID #1607

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
MATTHEW LEE STASZAK,
Petitioner,
Civil No. 15-cv-20-JPG

v.

Criminal No 12-cr-40064-JPG

UNITED STATES OF AMERICA,
Respondent.

JUDGMENT
This matter having come before the Court, and the Court having rendered a decision,
IT IS HEREBY ORDERED AND ADJUDGED that petitioner Matthew Lee Staszak’s motion
to vacate, set aside or correct his sentence pursuant to 28 U.S.C. § 2255 is denied, that judgment is
entered in favor of respondent United States of America and against petitioner Matthew Lee Staszak,
and that this case is dismissed with prejudice.

DATED: February 21,2020

MARGARET M. ROBERTJE, Clerk of Court
s/Tina Gray, Deputy Clerk

Approved:

s/ J. Phil Gilbert
J. PHIL GILBERT
DISTRICT JUDGE

)

Case: 20-1381

Document: 6

Filed: 11/04/2020

Pages: 1

Mnifob j^tafcs Court uf Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 29,2020
Decided November 5, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 20-1381
MATTHEW LEE STASZAK,
Petitioner-Appellant,

Appeal from the United States District
Court for the Southern District of Illinois.
No. 3:15-CV-00020-JPG

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

J. Phil Gilbert,
Judge.

ORDER
Matthew Staszak has filed a notice of appeal from the denial of his motion under
28 U.S.C. § 2255 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal and find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, Staszak's request for a certificate of appealability and his motion for
appointment of appellate counsel are denied.

Case: 20-1381

r\- \ -

Filed: 12/03/2020

Document: 8

Pages: 1

United S
For the Seventh Circuit
Chicago, Illinois 60604
December 3,2020
Before
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 20-1381
MATTHEW LEE STASZAK,
Petitioner-Appellant,

Appeal from the United States District
Court for the Southern District of Illinois.
No. 3:15-cv-00020-JPG

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

v *•

J. Phil Gilbert,
Judge.

ORDER

On consideration of the appellant s petition for rehearing and rehearing en banc,
no judge in regular active service has requested a vote on the motion for rehearing en
banc and the judges on the original panel have voted to deny rehearing. It is, therefore,
ORDERED that the petition for rehearing and rehearing en banc is DENIED.

;

/

Case 4:12-cr-40064-JPG Document 53 Filed 06/03/13 Page lot 4 Page ID #185

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
UNITED STATES OF AMERICA,

)
)
)
)
)
)

Plaintiff,
vs.
MATTHEW STASZAK,

)
)
)

Defendant.

NOV 18 2012
CLERK, U.S. DISTRICT COURT
SOUTHERN DISTRICT OF ILLINOIS
SA3T ST. LOUIS OFFICE

CRIMINAL NO. 12-40064-JPG
Title 18, United States Code,
Sections 2251 (a) and (e), 2253(a)(3),
2423(b), 2428(a)(1), and 3146(a)(1).

SECOND SUPERSEDING INDICTMENT

THE GRAND JURY CHARGES:

COUNT 1
Sexual Exploitation of a Minor
Between on or about June 1, 2011 and on or about July 31, 2011, in Williamson County,
Illinois, within the Southern District of Illinois,
MATTHEW STASZAK,
defendant herein, did knowingly employ, use, persuade, induce, entice, and coerce a minor, K.G.,
to engage in sexually explicit conduct, for the purpose of producing a visual depiction of such
conduct, and did attempt to do so, which visual depiction was produced using materials that had been
mailed, shipped, and transported in interstate commerce; all in violation of Title 18, United States
Code, Sections 2251(a) and (e).

COUNT2
Travel with Intent to Engage in Illicit Sexual Conduct
On or about March 22,2011, in Williamson County, Illinois, within the Southern District of
Illinois, and the State of North Carolina,

Case 4:12-cr-40064-JPG Document 53 Filed 06/03/13 Page 2 of 4 Page ID #186

MATTHEW STASZAK,
defendant herein, did knowingly travel in interstate commerce from North Carolina to Williamson
County, Illinois, for the purpose of engaging in illicit sexual conduct, that being a sexual act (as
defined in section 2423(f)) with a person under 18 years of age, all in violation of Title 18, United
States Code, Section 2423(b).

COUNT3
Travel with Intent to Engage in Illicit Sexual Conduct
On or about May 29, 2011, in Williamson County, Illinois, within the Southern District of
Illinois, and the State of North Carolina,
MATTHEW STASZAK,
defendant herein, did knowingly travel in interstate commerce from North Carolina to Williamson
County, Illinois, for the purpose of engaging in illicit sexual conduct, that being a sexual act (as
defined in section 2423(f)) with a person under 18 years of age, all in violation of Title 18, United
States Code, Section 2423(b).

COUNT4
FAILURE TO APPEAR
On or about October 4, 2012, in Franklin County, Illinois, within the Southern District of
Illinois,
MATTHEW STASZAK,
defendant herein, having been charged with violations of Title 18, United States Code, Sections
2251 (a) and (e) and 2423(b), felony offenses, and having been released pursuant to chapter 207 of

Case 4:12-cr-40064-JPG Document 53 Filed 06/03/13 Page 3 of 4 Page ID #187

Title 18, United States Code, in connection with the aforementioned criminal charges, for appearance
before Magistrate Judge Philip M. Frazier at 11:30 a.m. on October 4,2012, for an initial appearance
on a superseding indictment in Case No. 12-40064-JPG, entitled United States v. Matthew Staszak,
did knowingly and willfully fail to appear as required, all in violation of Title 18, United States
Code, Section 3146(a)(1).

FORFEITURE
As a result of the commission of the offenses charged in Counts 1 and 2 of the Second
Superseding Indictment, defendant MATTHEW STASZAK shall forfeit to the United States,
pursuant to Title 18, United States Code, Section 2253(a)(3), the defendant’s interest in any property
used or intended to be used to commit or to promote the commission of such offense, or any property
traceable to such property. The property to be forfeited includes, but is not limited to: 1) a 2007 Jeep
Grand Cherokee, VIN: 1J8HR48N87C689206, and all accessories, attachments, and components
therein or thereon; and 2) a Verizon cellular telephone, model Droid X2, bearing serial number
SJUG6250.
As a result of the commission of the offense charged in Count 3 of the Second Superseding
Indictment, defendant MATTHEW STASZAK shall forfeit to the United States, pursuant to Title
18, United States Code, Section 2428(a)(l), the defendant’s interest in any property used or intended
to be used to commit or to facilitate the commission of such offense. The property to be forfeited

Case 4:12-cr-40064-JPG Document 53 Filed 06/03/13 Page 4 of 4 Page ID #188

includes, but is not limited to: a Verizon cellular telephone, model Droid X2, bearing serial number
SJUG6250.
ATRUE BILL

Kit R. MORRISSEY
J
Assistant United States Attorney

ANGELA SCOTT
Assistant United States Attorney

A

c
STEPHEN R. WIGGOTON
United States Attorney

Recommended Bond: Detention

%

)

Case 4:12-cr-40064-JPG Document 85 Filed 02/20/14 Page 1 of 6 Page ID #411
A0245B

(Rev. 09/11) Judgment m a Criminal Case
Sheet 1

United States District Court
Southern District of Illinois
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA
v.
Matthew Staszak

JUDGMENT IN A CRIMINAL CASE
Case Number: 12CR40064-001
USM Number: 24227-171
Melissa A. Day, AFPD
Defendant’s Attorney

THE DEFENDANT:
gfpleaded guilty to countfs)

1, 2,3 AND 4 of the Second Superseding Indictment.

□ pleaded nolo contendere to counts)
which was accepted by the court.

___________________________________

□ was found guilty on counts)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

18 U.S.C.2423(b)

Nature of Offense

Offense Ended

Travel With Intent to engage in Illicit Sexual Conduct

5/29/2011

Count

2ss,3ss

1
The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□ Hie defendant has been found not guilty on counts)
□ Count(s)

6

of this judgment The sentence is imposed pursuant to

____

□ is

Dare dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are hilly paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
2/5/2014
Date of Imposition of Judgment
c

Signature o&Mdge

J. Phil Gilbert, District Judge
Name and Titleoj

h

Case 4:12-cr-40064-JPG Document 85 Filed 02/20/14 Page 2 of 6 Page ID #412
A0 245B

(Rev. 09/11) Judgment in Criminal Case
Sheet 2—Imprisonment
Judgment—Page

2

of

6

DEFENDANT: Matthew Staszak
CASE NUMBER: 12CR40064-G01

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:
240 months (180 months on Counts 1,2 and 3 of the 2nd Superseding Indictment. Counts 1,2 and 3 are to run concurrent
with each other. 60 months on Count 4 of the 2nd Superseding Indictment to run consecutive to Counts 1,2 and 3 of the 2nd
Superseding Indictment.
□ The court makes the following recommendations to die Bureau of Prisons:

gf The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to die United States Marshal for this district:
□ a.m.

□ at

□ p.m.

on

___

□ as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 p.m. on

_________ ____________ _ •

□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

to

Defendant delivered on
a

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

Case 4:12-cr-40064-JPG Document 85 Filed 02/20/14 Page 3 of 6 Page ID #413
A0245B

(Rev. 09/11) Judgment in a Criminal Case
Sheet 3 — Supervised Retease____
Judgment—Page

DEFENDANT: Matthew Staszak
CASE NUMBER: 12CR40064-001

3

of

b

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of:
10 years (This consists of 10 years on Counts 1,2 and 3 of the 2nd Superseding Indictment and 3 years on Count 4 of the
2nd Superseding Indictment. All Counts to run concurrent with each other.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours ofrelease from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court’s determination that die defendant poses a low risk of
future substance abuse. (Check ifapplicable.)
Ijf The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check ifapplicable.)
$ The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check $applicable.)

works, is a student, or was convicted of a qualifying offense. (Check ifapplicable.)
□

The defendant shall participate in an approved program for domestic violence. (Check ifapplicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with die
Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)
2)
3)
4)
5)
6)
7)
8)
9}
10)
11)
12)
13)

the defendant shall not leave the judicial district without the permission of the court or probation officer;
the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
die defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so ny the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;
the defendant shall notify die probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by die defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant's compliance with such notification requirement

Document 85 Filed 02/20/14 Page 4 of 6 Page ID #414

A0245B
Sheet 3C—Supervised Release

DEFENDANT: Matthew Staszak
CASE NUMBER: 12CR40064-001

Judgment—Page

of

6

SPECIAL CONDITIONS OF SUPERVISION
X Due to concerns related to the defendant's mental health, the defendant shall participate in a program of mental health
treatment, which may include participation in treatment for anger management, domestic violence, cognitive skills, or other
forms of therapy or counseling that may be recommended, as directed by the probation officer. This may include a mental
health regiment prescribed by a licensed practitioner, at the direction of the probation officer. The defendant shall pay for
the costs associated with services, rendered, based on a Court approved sliding fee scale as directed by the probation
officer. The defendant’s obligation shall never exceed the total cost of services rendered.
X The defendant shall participate in an approved sexual offender treatment program, as directed by the probation
officer. If deemed necessary, the defendant shall submit to an approved, sexual-predator evaluation, as directed by the
probation officer. The defendant shall abide by all rules, requirements, and conditions of the treatment program, including
submission to polygraph and/or plethysmograph examination to determine compliance with the conditions of release. The
defendant shall remain in the program until successfully completed, or until such time as the defendant is released from
the program by the Court and/or probation officer. The defendant shall pay for tee costs associated with counseling and/or
evaluation based on a copay sliding fee scale as directed and approved by the United States Probation Office. The copay
shall never exceed the total costs of counseling.
X The defendant shall permit the probation officer to have access to any personal computer and/or electronic device
capable of accessing the Internet, World Wide Web, and Electronic Mail. The defendant shall also allow the probation
officer or designee to conduct regular searches of his computer and/or electronic device using software monitoring devices
if determined necessary by the probation officer. The defendant shall advise the probation officer of all e-mail addresses
used on both public and private computers. The defendant shall consent to third-party disclosure to any employer or
potential employer, concerning any computer-related restrictions that may be imposed. The defendant shall warn other
residents or occupants of his home that computer systems will be subject to inspection by the probation officer and/or
authorized contractor.
X The defendant shall submit his person, residence, real property, place of business, computer, or vehicle to a search,
conducted by the United States probation Officers at a reasonable time and in a reasonable manner, based upon
reasonable suspicion of contraband or evidence of a violation of a condition of supervision. Failure to submit to a search
may be grounds for revocation. The defendant shall inform any other residents that the premises may be subject to a
search pursuant to this condition.
X Based on tee nature of the offense/defendanfs history, he shall not have any contact with K.G.
X The defendant shall not possess or use electronic devices capable of taking photographs or videos.
X The defendant shall not subscribe to any text messaging services or date file services.
X The defendant is prohibited from activity in social media sites, internet chat rooms, and internet forums.
X Based on the nature of the offense/defendant’s history, he shall not have any contact with females under the age of 18
unless in the presence of a responsible adult who is aware of tee nature of tee defendant’s background and instant offense
and who has been approved by tee probation officer.
X The defendant shall provide the probation officer and the financial litigation Unit of tee United States Attorney’s Office
with access to any requested financial information. The defendant is advised that the probation office may share financial
information with the Financial litigation Unit.
X The defendant shall apply all monies received from income tax refunds, lottery winnings, judgments, and/or any other
anticipated or unexpected financial gains to tee outstanding court-ordered financial obligation. The defendant shall
immediately notify the probation officer of the receipt of any indicted monies.
X The defendant shall forfeit interest in the foilowing property to the United States: 2007 Jeep Grand Cherokee, VIN
1J8HR48N87C689206 and Verizon cellular telephone, model Droid X2, serial number SJUG6250.
X The defendant shall make monthly payments in the amount of $20.00 or 10% of his net monthly income, whichever is
greater.

A0245B (RevOaepji4giiatQra4fiQS(teiPG Document 85 Filed 02/20/14 Page 5 of 6 Page ID #415
Sheet 5 — Criming] Monetaiy Penalties

Judgment—Page

DEFENDANT: Matthew Staszak
CASE NUMBER: 12CR40064-001

of

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
S 400.00

Fine

Restitution
S 0.00

S 1,250.00

D The determination of restitution is deferred until
after such determination.

. An Amended Judgment in a Criminal Case(A0245C) will be entered

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendaiit makes a partial payment, each pa^ee shallreceive an approximatdj^rogortioned^payment, unJessspecified otherwise in
before the United States is pafd.^3^11
er, pursuan ol ... 3
i), all nonfederal victims must be paid
Name of Pavee

Total Loss*

Restitution Ordered Priority or Percentage

t

±*

&

V

mg'

■■: ■

v

m
TOTALS

0.00

$

$

0.00

□

Restitution amount ordered pursuant to plea agreement $

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

gf The court determined that the defendant does not have tire ability to pay interest and it is ordered that:
gf the interest requirement is waived for the
□ the interest requirement for the

□ fine

fine

□ restitution.

□ restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113AofTitle 18 for offenses committed on or after
September 13,1994, but before April 23,1996.

Document 85 Filed 02/20/14 Page 6 of 6 Page ID #416

A0245B
Sheet 6—Schedule of Payments

Judgment—Page

6

of

6

DEFENDANT: Matthew Staszak
CASE NUMBER: 12CR40064-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

Lump sum payment of $
□
□

not later than
in accordance

1,650.00______ due immediately, balance due
□ C,

□ D,

□

, or
E, or

gf F below; or

B

□ Payment to begin immediately (may be combined with

C

□ Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

D

□ Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g, months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

□ Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment Hie court will set die payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□ C,

□ D, or

□ F below); or

Special instructions regarding the payment of criminal monetary penalties:
Defendant shall make monthly payments in the amounts of $20.00 or ten percent of his net monthly income,
whichever is greater.

Unless the court has expressly ordered otherwise, ifthis judgment imposes imprisonment^ga^mCTrtofCTiminal monetary penaltiesjsdue during
Responsibility Program, are made totiiePclerk of the court.
P8^m
Hie defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□

The defendant shall pay die cost of prosecution.

□

The defendant shall pay the following court cost(s):

5^ The defendant shall forfeit the defendant’s interest in die following property to the United States:
2007 Jeep Grand Cherokee, VIN : 1J8HR48N87C689206 and Verizon cellular telephone, model Droid X2, serial
number SJUG6250
Payments shall beapplied in the following order: (lj) assessment, (2) restitution principal, (3) restitutiorunterest, (4) fine principal,

)

2251(a) A person who employs, uses, persuades, induces, entices or coerces a
minor to engage in, sexually explicit conduct, for the purpose of producing a
visual depiction of such conduct, or for the purpose of transmitting of a live visual
depiction of such conduct, shall be punished as provided under subsection(e), if
that visual depiction was produced or transmitted using materials that have been
mailed, shipped, or transported in or affecting interstate commerce; all in violation
of Title, United States Code, Sections 2251(a) and (e).
(ref. A-4 Second Superseding Indictment)

i

\

2423(b); A person who travels in interstate commerce with a motivating purpose
of engaging in illicit sexual conduct with another person.
(ref. A-4 Second Superseding Indictment)
3146(a)(1) Whoever have been released under this chapter knowingly fails to
appear before a court as required by the conditions of release.
(ref. A-4 Second Superseding Indictment)

.•5

f

L

U.S. District Court
Southern District of Illinois (Benton)
CRIMINAL DOCKET FOR CASE #: 4:12-cr-40064-JPG-l
Case title: USA v. Staszak
Magistrate judge case number: 3:12-mj-07029-SCW

Date Filed: 06/20/2012
Date Terminated: 02/20/2014

Assigned to: Judge J. Phil Gilbert
Defendant (1)
Matthew Lee Staszak
TERMINATED: 02/20/2014
also known as
Matthew Staszak
TERMINATED: 02/20/2014

represented by Judith A. Kuenneke
Federal Public Defender's Office
401W. Main Street
P.O. Box 1075
Benton, IL 62812
618-435-2552
Email: Judy_Kuenneke@fd.org
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Designation: Public Defender or
Community Defender Appointment
Melissa A. Day
Federal Public Defender's Office Benton
401 West Main Street
P.O. Box 1075
Benton, IL 62812
618-435-2552
Email: Melissa_Day@fd.org
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Designation: Public Defender or
Community Defender Appointment
Terry M. Green
Law Offices of Terry M. Green
Generally Admitted
1209 E. Main Street
Suite A
West Frankfort, IL 62896
618-937-3305
Fax: 618-937-3294
Email: terrymgreenattomey@mchsi.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Designation: CJA Appointment
Justin A. Kuehn
Kuehn, Beasley & Yoimg, P.C.
23 South 1st Street
Belleville, IL 62220
618-277-7260
Fax: 618-277-7718
Email: justinkuelm@kuehnlawfirm.com
TERMINATED: 07/23/2012
Designation: Retained
Thomas Q. Keefe, III
Keefe, Keefe & Unsell, P.C.
6 Executive Woods Court
Belleville, IL 62226
618-236-2221
Fax: 618-236-2194
Email: keefetq@gmail.com
TERMINATED: 06/03/2013
Designation: Retained
Pending Counts

18:2251(a)and (e)SEXUAL
EXPLOITATION OF CHILDREN
(lss)

18:2423(b) TRAVEL WTIH INTENT
TO ENGAGE IN ILLICIT SEXUAL
CONDUCT; COERCION OR
ENTICEMENT OF MINOR FEMALE

Disposition
Defendant committed to custody of
Bureau of Prisons for a term of 240
months. This sentence consists of 180
months on Counts 1,2,3 of the Second
Superseding Indictment to run
concurrent with each other and 60
months on Count 4 of the 2nd
Superseding Indictment to run
consecutive to Counts 1, 2 and 3 of the
2nd Superseding Indictment. Upon
release from imprisonment, defendant is
placed on Supervised Release for a term
of 10 years on Counts 1, 2 and 3 of the
2nd Superseding Indictment and 3 years
on Count 4 of the 2nd Superseding
Indictment. All Counts to run concurrent
with each other. Defendant fined
$1250.00 $300.00 on each of Counts 1,
2 and 3 and $350.00 on Count 4 of the
2nd Superseding Indictment. Special
Assessment of $400.00
Defendant committed to custody of
Bureau of Prisons for a term of 240
months. This sentence consists of 180
months on Counts 1,2,3 of the Second

(2ss-3ss)

18:3146(a)(l)FAILURE TO APPEAR
(4ss)

Superseding Indictment to run
concurrent with each other and 60
months on Count 4 of the 2nd
Superseding Indictment to run
consecutive to Counts 1, 2 and 3 of the
2nd Superseding Indictment. Upon
release from imprisonment, defendant is
placed on Supervised Release for a term
of 10 years on Counts 1, 2 and 3 of the
2nd Superseding Indictment and 3 years
on Count 4 of the 2nd Superseding
Indictment. All Counts to run concurrent
with each other. Defendant fined
$1250.00 $300.00 on each of Counts 1,
2 and 3 and $350.00 on Count 4 of the
2nd Superseding Indictment. Special
Assessment of $400.00
Defendant committed to custody of
Bureau of Prisons for a term of 240
months. This sentence consists of 180
months on Counts 1,2,3 of the Second
Superseding Indictment to run
concurrent with each other and 60
months on Count 4 of the 2nd
Superseding Indictment to run
consecutive to Counts 1,2 and 3 of the
2nd Superseding Indictment. Upon
release from imprisonment, defendant is
placed on Supervised Release for a term
of 10 years on Counts 1, 2 and 3 of the
2nd Superseding Indictment and 3 years
on Count 4 of the 2nd Superseding
Indictment. All Counts to run concurrent
with each other. Defendant fined
$1250.00 $300.00 on each of Counts 1,
2 and 3 and $350.00 on Count 4 of the
2nd Superseding Indictment. Special
Assessment of $400.00

Highest Offense Level (Opening!
Felony
Terminated Counts
18 USC 2251(a) - Production of Child
Pornography
(1)
18:2251(a) - Production of Child

Disposition
Dismissed by Government
Dismissed by Government

Pornography
(Is)
18 USC 2423(b) - Travel with Intent to
Engage in Illicit Sexual Conduct

Dismissed by Government

(2)

18:2423(b) - Travel with Intent to
Engage in Illicit Sexual Conduct
(2s-3s)

Dismissed by Government

Highest Offense Level (Terminated)
Felony
Complaints
Count 1,18:2251(a), Production of
Child Pornography; Count 2,
18:2251(a), and 2422(b), Enticement of
a Minor; Count 3,18:2423(b), Travel
with intent to engage in illicit sexual
conduct

Plaintiff
USA

Disposition

represented by Kit R. Morrissey
Assistant U.S. Attorney - Fairview
Heights
9 Executive Drive
Suite 300
Fairview Heights, IL 62208
618-628-3700
Email: cally.killian@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Angela Scott
Assistant U.S. Attorney - Fairview
Heights
9 Executive Drive
Suite 300
Fairview Heights, IL 62208
618-628-3700
Email: angela.scott@usdoj.gov
ATTORNEY TO BE NOTICED
Michael Thompson
Assistant U.S. Attorney - Fairview
Heights

St. Clair County
9 Executive Drive
Suite 300
Fairview Heights, IL 62208
618-628-3700
Email: Michael.Thompson2@usdoj.gov
ATTORNEY TO BE NOTICED
Date Filed

#

Docket Text

06/08/2012

1 SEALED COMPLAINT as to Matthew Staszak (1). (amv) [3:12-mj-07029SCW] (Entered: 06/11/2012)

06/08/2012

2 Arrest Warrant Issued in case as to Matthew Staszak. (amv) [3:12-mj-07029-

SCW] (Entered: 06/11/2012)
06/08/2012

3

Sealed Document unredacted arrest warrant(amv) [3:12-mj-07029-SCW]
(Entered: 06/11/2012)

06/08/2012

5

MOTION to Seal by USA as to Matthew Staszak. (amv) [3:12-mj-07029SCW] (Entered: 06/11/2012)

06/11/2012

6

ORDER granting 5 Motion to Seal as to Matthew Staszak (1). Signed by
Magistrate Judge Stephen C. Williams on 6/11/12. (amv) [3:12-mj-07029SCW] (Entered: 06/11/2012)

06/12/2012

Attorney update in case as to Matthew Staszak. Attorney Deirdre A.
Durborow terminated, (amv) [3:12-mj-07029-SCW] (Entered: 06/12/2012)
SEALED MOTION by USA as to Matthew Staszak. (Scott, Angela) [3:12-mj07029-SCW] (Entered: 06/18/2012)

06/18/2012

7

06/19/2012

8 NOTICE OF HEARING ON 7 SEALED MOTION: Motion Hearing SET for

6/21/2012 at 09:00 AM in Benton Courthouse before Judge G. Patrick
Murphy as to Matthew Staszak. (lmm)THIS TEXT ENTRY IS AN ORDER
OF THE COURT. NO FURTHER DOCUMENTATION WILL BE MAILED.
[3:12-mj-07029-SCW] (Entered: 06/19/2012)
06/20/2012

1

06/20/2012

9 NOTICE OF ATTORNEY APPEARANCE Kit R. Morrissey appearing for
USA. (Morrissey, Kit) [3:12-mj-07029-SCW] (Entered: 06/20/2012)

06/21/2012

4 Warrant Issued in case as to Matthew Lee Staszak. (tkm) (Entered:

INDICTMENT as to Matthew Lee Staszak (1) coxmt(s) 1, 2. (tkm) (Entered:
06/21/2012)

06/21/2012)
06/21/2012

10 Minute Entry for proceedings held before Judge G. Patrick Murphy
(bkl):Matter is called for Motion Hearing as to Matthew Staszak on 6/21/2012
re 7 SEALED MOTION filed by USA. Melissa Day, FPD, appeared on behalf
of Defendant and requests a continuance. Defendant has retained counsel who
was unavailable for this hearing. Defendant has met the conditions of bond.
Enlargement of time is Granted. All conditions of bond remain in full force.

Motion hearing will be reset after retained counsel enters an appearance.
(Court Reporter Michelle Zimmerman.) (bkl)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. [3:12-mj-07029-SCW] (Entered: 06/21/2012)
06/21/2012

11 NOTICE OF ATTORNEY APPEARANCE: Justin A. Kuehn appearing for
Matthew Staszak (Kuehn, Justin) [3:12-mj-07029-SCW] (Entered:
06/21/2012)

06/25/2012

12 Docket Annotation—Magistrate Case #12-7029 merged with criminal case as
to Matthew Lee Staszak. (djs,) (Entered: 06/25/2012)

06/25/2012

13 Rule 5(c)(3) Documents Received as to Matthew Lee Staszak (originally
received 6/21/12) (bkl) (Entered: 06/25/2012)

06/26/2012

14 MINUTE ORDER (kjr) as to Matthew Lee Staszak re 7 SEALED MOTION
filed by USA. Motion Hearing set for 6/28/2012 09:30 AM in Benton
Courthouse before Judge J. Phil Gilbert, (jdh) (Entered: 06/26/2012)

06/28/2012

15 Minute Entry for proceedings held before Judge J. Phil Gilbert:
(kjr)Arraignment and DeNovo Hearing as to Matthew Lee Staszak held on
6/28/2012. The Court arraigns the defendant on Counts 1 and 2 of the
indictment and enters a not guily plea for the defendant. Motion Hearing reset
for 7/26/2012 10:00 AM in Benton Courthouse before Judge J. Phil Gilbert.
Final Pretrial Conference set for 8/16/2012 09:30 AM in Benton Courthouse
before Judge J. Phil Gilbert. Jury Trial set for 8/20/2012 09:00 AM in Benton
Courthouse before Judge J. Phil Gilbert. (Court Reporter Jane Northcutt.)
(jdh) (Entered: 06/28/2012)

06/28/2012

16 ORDER REGARDING PRETRIAL DISCOVERY AND MOTION
PRACTICE as to Matthew Lee Staszak. Signed by Judge J. Phil Gilbert on
6/28/2012. (krm) (Entered: 06/28/2012)

07/06/2012

1Z

07/06/2012

18 Sealed Document - UNREDACTED Arrest Warrant Returned Executed (cekf)
(Entered: 07/06/2012)

07/12/2012

19 NOTICE OF ATTORNEY APPEARANCE: Thomas Q. Keefe, III appearing
for Matthew Lee Staszak (Keefe, Thomas) (Entered: 07/12/2012)

07/19/2012

20

07/23/2012

21 ORDER as to Matthew Lee Staszak granting 20 MOTION to Withdraw as
Attorney by Justin A. Kuehn. Signed by Judge J. Phil Gilbert on 7/23/2012.
(dka,) (Entered: 07/23/2012)

07/23/2012

22

MINUTE ORDER (kjr) as to Matthew Lee Staszak. DeNovo Hearing reset for
8/2/2012 11:00 AM in Benton Courthouse before Judge J. Phil Gilbert, (jdh)
(Entered: 07/23/2012)

07/27/2012

23

STRICKEN PER DOC#24- MOTION for Victim Rights and Protective

REDACTED Arrest Warrant Returned in re: 12-mj-7029 Executed on 6/12/12
as to Matthew Lee Staszak. (cekf) (Entered: 07/06/2012)

MOTION to Withdraw as Attorney by Justin A. Kuehn. by Matthew Lee
Staszak. (Kuehn, Justin) (Entered: 07/19/2012)

Order by USA as to Matthew Lee Staszak. (Scott, Angela) Modified on
7/30/2012 (jdh). (Entered: 07/27/2012)
07/30/2012

24 NOTICE STRIKING ELECTRONICALLY FILED DOCUMENTS

striking 23 Motion for Victim Rights filed by USA. See attached document for
specifics, (jdh) (Entered: 07/30/2012)
07/30/2012

25 MOTION for Protective Order for Discovery Materials, MOTION for Victim

Rights by USA as to Matthew Lee Staszak. (Scott, Angela) (Entered:
07/30/2012)
07/30/2012

26 MOTION to Continue Trial Setting by Matthew Lee Staszak. (Keefe,
Thomas) (Entered: 07/30/2012)

07/31/2012

27

ORDER as to Matthew Lee Staszak. Signed by Judge J. Phil Gilbert on
7/31/2012. (jdh) (Entered: 07/31/2012)

08/02/2012

28

Minute Entry for proceedings held before Judge J. Phil Gilbert:(kjr)DeNovo
Hearing as to Matthew Lee Staszak held on 8/2/2012. The Court after hearing
evidence hereby denies the motion at doc. #7. The Court Grants 26 MOTION
to Continue Trial Setting filed by Matthew Lee Staszak. Final Pretrial
Conference reset for 10/18/2012 09:30 AM in Benton Courthouse before
Judge J. Phil Gilbert. Jury Trial reset for 10/22/2012 09:00 AM in Benton
Courthouse before Judge J. Phil Gilbert. (Court Reporter Chris Simpson.)
(jdh) (Entered: 08/03/2012)

08/03/2012

29 EXHIBIT AND WITNESS LIST by Matthew Lee Staszak re 28 . (bkl)
(Additional attachment(s) added on 6/23/2016: # 1 Portion of Transcript,
# 2 Personal Inventory) (mar). (Entered: 08/06/2012)

08/06/2012

30 EXHIBIT re 29 Exhibit List (One envelope exhibits placed in Benton vault),

(bkl) (Entered: 08/06/2012)
09/19/2012

31 SUPERSEDING INDICTMENT as to Matthew Lee Staszak (1) count(s) Is,
2s-3s. (drb) (Entered: 09/20/2012)

09/20/2012

34 SUMMONS issued to USMS as to Matthew Lee Staszak: Arraignment on

Superseding Indictment set for 10/4/2012 11:30 AM in Benton Courthouse
before Magistrate Judge Philip M. Frazier, (krm) (Entered: 09/20/2012)
09/25/2012

35 Arrest Warrant Returned Executed on 6/28/12 in case as to Matthew Lee

Staszak. (dka,) (Entered: 09/25/2012)
10/02/2012

36 Summons Returned Executed on 10/1/2012 as to Matthew Lee Staszak (jdh)
(Entered: 10/02/2012)

10/03/2012

37 MOTION in Limine Regarding Defining Reasonable Doubt, Arguing

Potential Sentence and Arguing Jury Nullification by USA as to Matthew Lee
Staszak. (Scott, Angela) (Entered: 10/03/2012)
10/03/2012

38

10/04/2012

39 MOTION to Revoke Bond by USA as to Matthew Lee Staszak. (Scott,

MOTION in Limine Pursuant to Federal Rule of Evidence 412 by USA as to
Matthew Lee Staszak. (Scott, Angela) (Entered: 10/03/2012)

Angela) Modified on 10/4/2012 (krm). (Motion originally filed under seal and
unsealed pursuant to 40 . (Entered: 10/04/2012)
10/04/2012

40

10/04/2012

41 Warrant for Arrest issued as to Matthew Lee Staszak. (krm) (Entered:
10/04/2012)

10/10/2012

42

MOTION to Continue Motion to Remove Case From the Trial Docket by
Matthew Lee Staszak. (Keefe, Thomas) (Entered: 10/10/2012)

10/11/2012

43

MOTION in Limine Prohibiting Consent as a Defense by USA as to Matthew
Lee Staszak. (Scott, Angela) (Entered: 10/11/2012)

10/11/2012

44 RESPONSE by Matthew Lee Staszak re 37 Motion in Limine (Keefe,

Minute Entry for proceedings held before Magistrate Judge Philip M. Frazier:
Cause called for Arraignment on Superseding Indictment. Defendant fails to
appear. Bond Revocation Hearing held on 10/4/2012. Motion to Revoke
Bond 39 granted. Warrant to issue. (Court Reporter Christine A. Simpson,
OCR.) (krm); Modified on 10/4/2012 (djs,). (Attachment added on 6/6/2016:
# 1 Exhibit) (krm). (Exhibit removed from Benton vault & attached to this
entry under seal.) (lam). (Entered: 10/04/2012)

Thomas) (Entered: 10/11/2012)
10/16/2012

45 MINUTE ORDER (kjr)as to Matthew Lee Staszak, Granting 42 MOTION to

Continue Motion to Remove Case From the Trial Docket filed by Matthew
Lee Staszak. Final Pretrial Conference reset for 11/30/2012 09:30 AM in
Benton Courthouse before Judge J. Phil Gilbert. Jury Trial reset for
12/10/2012 09:00 AM in Benton Courthouse before Judge J. Phil Gilbert,
(jdh) (Entered: 10/16/2012)
10/22/2012

46 RESPONSE to Motion by Matthew Lee Staszak re 38 MOTION in
Limine Pursuant to Federal Rule of Evidence 412 (Keefe, Thomas) (Entered:
10/22/2012)

10/24/2012

47 RESPONSE to Motion by Matthew Lee Staszak re 43 MOTION in

Limine Prohibiting Consent as a Defense (Keefe, Thomas) (Entered:
10/24/2012)
SEALED REPLY TO RESPONSE to Motion by USA as to Matthew Lee
Staszak re 38 MOTION in Limine Pursuant to Federal Rule of Evidence
412 (Scott, Angela) (Entered: 11/13/2012)

11/13/2012

48

11/27/2012

49 MOTION Remove Case from Docket by USA as to Matthew Lee Staszak.
(Morrissey, Kit) (Entered: 11/27/2012)

11/27/2012

50

11/30/2012

51 Minute Entry for proceedings held before Judge J. Phil Gilbert:(kjr)Final
Pretrial Conference as to Matthew Lee Staszak held on 11/30/2012.

MINUTE ORDER (kjr) as to Matthew Lee Staszak, This matter is before the
court for purposes of case management and calendar control.lt is hereby
ORDERED that the final pre-trial conference set for 11/30/2012 at 9:30 a.m.
is STRICKEN from the courts calendar. It is further ORDERED that this
matter is reset for final pre-trial by telephone on 11/30/2012 at 8:20 a.m.All
parties are to call in at number 618-439-7733. (jdh) (Entered: 11/27/2012)

Granting 49 MOTION Remove Case from Docket filed by USA. (Court
Reporter Chris Simpson.) (jdh) (Entered: 11/30/2012)
06/03/2013

52 MOTION to Withdraw as Attorney by Matthew Lee Staszak. (Keefe, Thomas)
(Entered: 06/03/2013)

06/03/2013

53 SECOND SUPERSEDING INDICTMENT as to Matthew Lee Staszak (1)
count(s) lss, 2ss-3ss, 4ss. (jdh) originally filed suppressed on 11/16/2012.
Modified on 6/6/2013 Gdh,). (Entered: 06/03/2013)

06/03/2013

56 Minute Entry for proceedings held before Magistrate Judge Philip M. Frazier
and Minute Order: Arraignment as to Matthew Lee Staszak (1) held on
6/3/2013. Motion to Withdraw as Counsel 52 granted. FPD's office present for
defendant and appointed. The Court orders the Second Superseding
Indictment unsealed. The Government provides a file-marked copy to the
Court and the parties agree to proceed to arraignment. Not guilty plea entered
as to Count ls,lss,2s-3s,2ss-3ss,4ss. Final Pretrial Conference set for
6/20/2013 09:30 AM and Jury Trial set for 7/8/2013 09:00 AM, both in
Benton Courthouse before Judge J. Phil Gilbert. Court recessed until 1:00 PM
6/3/2013 for detention hearing. (Court Reporter Digital Audio Recording.)
(krm) (Entered: 06/03/2013)

06/03/2013

57 CJA 23 Financial Affidavit by Matthew Lee Staszak. (krm) (Entered:
06/03/2013)

06/03/2013

58 NOTICE and Assertion of Fifth and Sixth Amendment Rights by Matthew
Lee Staszak. (krm) (Entered: 06/03/2013)

06/03/2013

59 ORDER APPOINTING FEDERAL PUBLIC DEFENDER as to Matthew Lee
Staszak. Signed by Magistrate Judge Philip M. Frazier on 6/3/2013. (krm)
(Entered: 06/03/2013)

06/03/2013

60 Minute Entry for proceedings held before Magistrate Judge Philip M.
Frazier:Detention Hearing as to Matthew Lee Staszak held on 6/3/2013.
Defendant ordered detained. On Government's request, Attorney Keefe, shall,
within 10 days, forward to the FPD, all discovery materials received to date.
This will be the only exception to the protective order entered in this case.
(Court Reporter Digital Audio Recording.) (krm) (Entered: 06/03/2013)

06/03/2013

61 ORDER OF DETENTION as to Matthew Lee Staszak. Signed by Magistrate
Judge Philip M. Frazier on 6/3/2013. (krm) (Entered: 06/03/2013)

06/03/2013

62 Arrest Warrant Issued in case as to Matthew Lee Staszak. Gdh) (Entered:
06/04/2013)

06/07/2013

63 Arrest Warrant Returned Executed on 6/2/2013 in case as to Matthew Lee
Staszak. Gdh) (Entered: 06/10/2013)

06/07/2013

64 Arrest Warrant Returned Executed on 6/2/2013 in case as to Matthew Lee
Staszak. Gdh) (Entered: 06/10/2013)

06/20/2013

65 Minute Entry for proceedings held before Judge J. Phil Gilbert: (kjr)Final
Pretrial Conference as to Matthew Lee Staszak held on 6/20/2013. Final
Pretrial Conference reset for 8/15/2013 at 10:00 AM in Benton Courthouse

before Judge J. Phil Gilbert. Jury Trial reset for 9/9/2013 at 09:00 AM in
Benton Courthouse before Judge J. Phil Gilbert. (Court Reporter Chris
Dohack.) (kjr, )(Entered: 6/20/2013) (Entered: 06/20/2013)
ORDER finding as moot 39 Sealed Motion as to Matthew Lee Staszak (1).
Motion is moot in light of detention ordered June 3, 2013 (Doc. 61). Signed
by Judge J. Phil Gilbert on 6/24/13. (dp) (Entered: 06/24/2013)

06/24/2013

66

07/16/2013

67 NOTICE OF ATTORNEY APPEARANCE: Judith A. Kuenneke, AFPD

appearing for Matthew Lee Staszak (Kuenneke, Judith) (Entered: 07/16/2013)
07/31/2013

08/05/2013

Set/Reset Hearings as to Matthew Lee Staszak: Change of Plea Hearing set
for 8/5/2013 at 02:00 PM in Benton Courthouse before Judge J. Phil Gilbert,
(kjr, )(Entered: 7/31/2013) (Entered: 07/31/2013)
68 Minute Entry for proceedings held before Judge J. Phil Gilbert.Change of Plea

Hearing as to Matthew Lee Staszak held on 8/5/2013. Defendant withdraw
plea of not guilty to Counts 1, 2, 3 and 4 of the 2nd Superseding Indictment
and enters a plea of guilty to Counts 1,2,3 and 4 of the 2nd Superseding
Indictment. Sentencing set for 12/6/2013 at 10:00 AM in Benton Courthouse
before Judge J. Phil Gilbert. (Court Reporter Chris Dohack.) (kjr, )(Entered:
8/5/2013) (Entered: 08/05/2013)
08/06/2013

69 STIPULATION OF FACTS as to Matthew Lee Staszak.(kjr, )(Entered:
8/6/2013) (Entered: 08/06/2013)

08/06/2013

70 PLEA AGREEMENT as to Matthew Lee Staszak.(kjr, )(Entered: 8/6/2013)

(Entered: 08/06/2013)
09/12/2013

71 MOTION FOR ENTRY OF PRELIMINARY ORDER OF FORFEITURE by
USA as to Matthew Lee Staszak. (Thompson, Michael) (Entered: 09/12/2013)

10/25/2013

72

INITIAL SEALED PRESENTENCE INVESTIGATION REPORT as to
Matthew Lee Staszak. Objections are due within 14 days, (prmcr,) (Entered:
10/25/2013)

12/03/2013

73

SEALED MOTION to Continue Sentencing by Matthew Lee Staszak. (Day,
Melissa) (Entered: 12/03/2013)

12/04/2013

74 MINUTE ORDER as to Matthew Lee Staszak re 73 The SEALED MOTION

filed by Matthew Lee Staszak. (kjr)Sentencing reset for 12/20/2013 at 11:00
AM in Benton Courthouse before Judge J. Phil Gilbert. Signed by Judge J.
Phil Gilbert on 12/4/2013.(kjr,) (Entered: 12/4/2013) (Entered: 12/04/2013)
MOTION to Continue Sentencing Hearing by USA as to Matthew Lee
Staszak. (Morrissey, Kit) (Entered: 12/09/2013)

12/09/2013

75

12/12/2013

76 MINUTE ORDER as to Matthew Lee Staszak re 75 MOTION to Continue

Sentencing Hearing filed by USA. (kjr)Sentencing reset for 1/16/2014 at
01:30 PM in Benton Courthouse before Judge J. Phil Gilbert. The Court is
hereby granting 75 The MOTION to Continue Sentencing Hearing filed by
USA. Signed by Judge J. Phil Gilbert on 12/12/2013.(kjr, ) (Entered:
12/12/2013)

01/10/2014

77

STRICKEN PER ORDER AT DOC. 80 - SEALED SENTENCING
MEMORANDUM as to Matthew Lee Staszak (Attachments: # 1 Appendix
Attachment A, # 2 Appendix Attachment B, # 3 Appendix Attachment C,
# 4 Appendix Attachment D, # 5 Appendix Attachment E, # 6 Appendix
Attachment F)(Day, Melissa) Modified on 2/3/2014 (cekf). (Entered:
01/10/2014)

01/15/2014

78

MINUTE ORDER as to Matthew Lee Staszak. (kjr) Sentencing reset for
2/5/2014 at 01:30 PM in Benton Courthouse before Judge J. Phil Gilbert.This
matter is STRICKEN from the 1/16/2014 docket. Signed by Judge J. Phil
Gilbert on 1/14/2014. (kjr,) (Entered: 01/15/2014)

01/31/2014

79 MOTION to Withdraw Document 77 Sentencing Memorandum, by Matthew
Lee Staszak. (Day, Melissa) (Entered: 01/31/2014)

01/31/2014

80

02/03/2014

81 SEALED SENTENCING MEMORANDUM as to Matthew Lee Staszak
(Attachments: # 1 Attachment A, # 2 Attachment B, # 3 Attachment C,
# 4 Attachment D, # 5 Attachment E, # 6 Attachment F)(Day, Melissa)
(Entered: 02/03/2014)

02/07/2014

82

Minute Entry for proceedings held before Judge J. Phil Gilbert.
(kjr)Sentencing held on 2/5/2014 for Matthew Lee Staszak (1), Count(s) Is, 2,
2s-3s, Dismissed by Government; Count(s) lss, 2ss-3ss, 4ss, Defendant
committed to custody of Bureau of Prisons for a term of 240 months. This
sentence consists of 180 months on Counts 1,2,3 of the Second Superseding
Indictment to run concurrent with each other and 60 months on Count 4 of the
2nd Superseding Indictment to run consecutive to Counts 1, 2 and 3 of the 2nd
Superseding Indictment. Upon release from imprisonment, defendant is
placed on Supervised Release for a term of 10 years on Counts 1, 2 and 3 of
the 2nd Superseding Indictment and 3 years on Count 4 of the 2nd
Superseding Indictment. All Counts to run concurrent with each other.
Defendant fined $1250.00 $300.00 on each of Counts 1, 2 and 3 and $350.00
on Count 4 of the 2nd Superseding Indictment. Special Assessment of
$400.00. (Court Reporter Chris Dohack.) (kjr,) (Entered: 02/07/2014)

02/07/2014

83

PRELIMINARY ORDER OF FORFEITURE as to Matthew Lee Staszak.
Signed by Judge J. Phil Gilbert on 2/5/2014. (kjr,) (Entered: 02/07/2014)

02/20/2014

85 JUDGMENT as to Matthew Lee Staszak. Signed by Judge J. Phil Gilbert on

ORDER as to Matthew Lee Staszak, Granting 79 MOTION to Withdraw
Document 77 Sentencing Memorandum. Signed by Judge J. Phil Gilbert on
1/31/2014. (jdh) (Entered: 01/31/2014)

2/20/2014. (kjr, ) (Entered: 02/20/2014)
02/20/2014

86 SEALED STATEMENT OF REASONS to 85 Judgment as to Matthew Lee
Staszak. Signed by Judge J. Phil Gilbert on 2/20/2014. (kjr,) (Entered:
02/20/2014)

04/22/2014

87 NOTICE as to Matthew Lee Staszak (Attachments: # 1 Exhibit)(Morrissey,

Kit) (Entered: 04/22/2014)
04/22/2014

88

MOTION FOR ORDER OF FINDING OF NO THIRD PARTY

INTERESTS by USA as to Matthew Lee Staszak. (Morrissey, Kit) (Entered:
04/22/2014)
04/30/2014

89 ORDER OF FINDING OF NO THIRD PARTY INTERESTS (FINAL
ORDER OF FORFEITURE) Signed by Judge J. Phil Gilbert on 4/30/2014.
(jdh) (Entered: 04/30/2014)

08/08/2014

90 Transcript of Motion Hearing as to Matthew Lee Staszak held on 06/21/2012,
before Judge Philip M. Frazier. Court Reporter Michelle Zimmerman,
Telephone number (618) 242-1737.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TranscriptPolicy.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)

08/08/2014

91 Transcript of Arraignment and De Novo Hearing as to Matthew Lee Staszak
held on 06/28/2012, before Judge Philip M. Frazier. Court Reporter Jane
Northcutt, Telephone number (618) 242-1737.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TranscriptPolicy.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)

08/08/2014

92 Transcript of De Novo Hearing as to Matthew Lee Staszak held on
08/02/2012, before Judge J. Phil Gilbert. Court Reporter Christine Dohack,
Telephone number (618) 439-7725.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the

website at http://www.iisd.uscourts.gov/forms/lVanscriptPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)
08/08/2014

93 Transcript of Arraignment on Superseding Indictment as to Matthew Lee
Staszak held on 10/04/2012, before Judge Philip M. Frazier. Court Reporter
Christine Dohack, Telephone number (618) 439-7725.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TranscriptPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)

08/08/2014

94 Transcript of Telephone Status Conference as to Matthew Lee Staszak held on
11/30/2012, before Judge J. Phil Gilbert. Court Reporter Christine Dohack,
Telephone number (618) 439-7725.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TranscriptPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)

08/08/2014

95 Transcript of Arraignment on Superseding Indictment and Second
Superseding Indictment as to Matthew Lee Staszak held on 06/03/2013,
before Judge Philip M. Frazier. Court Reporter/Transcriber Christine Dohack,
Telephone number (618) 439-7725. Tape Number: Liberty Recording.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21

calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TranscriptPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter/Transcriber before the deadline for Release of Transcript
Restriction. After that date it may be obtained through PACER. Redaction
Request due 8/29/2014. Redacted Transcript Deadline set for 9/8/2014.
Release of Transcript Restriction set for 11/6/2014. (cad) (Entered:
08/08/2014)
08/08/2014

96 Transcript of Final Pretrial Conference as to Matthew Lee Staszak held on
06/20/2013, before Judge J. Phil Gilbert. Court Reporter Christine Dohack,
Telephone number (618) 439-7725.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TVanscriptPolicy.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)

08/08/2014

97 Transcript of Change of Plea as to Matthew Lee Staszak held on 08/05/2013,
before Judge J. Phil Gilbert. Court Reporter Christine Dohack, Telephone
number (618) 439-7725.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TranscriptPolicy.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)

08/08/2014

98 Transcript of Sentencing as to Matthew Lee Staszak held on 02/05/2014,
before Judge J. Phil Gilbert. Court Reporter Christine Dohack, Telephone

number (618) 439-7725.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TranscriptPolicy.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
8/29/2014. Redacted Transcript Deadline set for 9/8/2014. Release of
Transcript Restriction set for 11/6/2014. (cad) (Entered: 08/08/2014)
03/05/2020

99 STRICKEN NOTICE OF APPEAL by Matthew Lee Staszak (Green, Terry)
(Entered: 03/05/2020)

03/06/2020

100 NOTICE STRIKING ELECTRONICALLY FILED DOCUMENTS
striking 99 Notice of Appeal - Final Judgment filed by Matthew Lee Staszak.
Document filed in incorrect case. Document was filed correctly in case 15-20JPG. (amv)THIS TEXT ENTRY IS AN ORDER OF THE COURT. NO
FURTHER DOCUMENTATION WILL BE MAILED. (Entered: 03/06/2020)

PACER Service Center
Transaction Receipt
01/22/2021 19:21:26
PACER Login: dstasz55:4285915:0 Client Code:
Search
Description: Docket Report
Criteria:
Billable Pages: 13
Cost:

4:12-cr-40064JPG
1.30

/

U.S. District Court
Southern District of Illinois (East St. Louis)
CIVIL DOCKET FOR CASE #: 3:15-cv-00020-JPG
Staszak v. USA
Assigned to: Judge J. PM Gilbert
Case in other court
USCA-7, 20-01381
Cause: 28:2255 Motion to Vacate / Correct Illegal Sentenc

Petitioner
Matthew Lee Staszak
24227-171
FORREST CITY LOW
FEDERAL CORRECTIONAL
INSTITUTION
Inmate Mail/Parcels
P.O. BOX 9000
FORREST CITY, AR 72336-9000
12-cr-40064-JPG

Date Filed: 01/08/2015
Date Terminated: 02/21/2020
July Demand: None
Nature of Suit: 510 Prisoner: Vacate
Sentence
Jurisdiction: U.S. Government
Defendant

represented by Terry M. Green
Law Offices of Terry M. Green
Generally Admitted
1209 E. Main Street
Suite A
West Frankfort, IL 62896
618-937-3305
Fax: 618-937-3294
Email: terrymgreenattorney@mchsi.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Patricia Gross
Reed, Heller et al. - Murphysboro, IL
1100 Walnut Street
P.O. Box 727
Murphysboro, IL 62966
618-687-2376
Fax: 618-684-5554
Email: patriciagross3@gmail.com
TERMINATED: 01/10/2018

V.
Respondent
USA

represented by Kit R. Morrissey
Assistant U.S. Attorney - Fairview
Heights
9 Executive Drive
Suite 300
Fairview Heights, IL 62208
618-628-3700
Email: cally.killian@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Angela Scott
Assistant U.S. Attorney - Fairview
Heights
9 Executive Drive
Suite 300
Fairview Heights, IL 62208
618-628-3700
Email: angela.scott@usdoj.gov
ATTORNEY TO BE NOTICED

Date Filed

Docket Text

#

01/08/2015

1 MOTION to Vacate, Set Aside or Correct Sentence (2255) filed by Matthew
Lee Staszak. (Attachments: # 1 letter to US Attomey)(jlrr) (Entered:
01/08/2015)

01/13/2015

2

NOTICE of Appearance by Angela Scott on behalf of USA (Scott, Angela)
(Entered: 01/13/2015)

04/07/2015

3

MEMORANDUM AND ORDER, The Court ORDERS the Government to
file a response to Grounds 1 through 11 of the petitioners § 2255 motion
within THIRTY DAYS of the date this order is entered. Signed by Judge J.
Phil Gilbert on 4/7/2015. (jdh) (Entered: 04/07/2015)

05/06/2015

4 MOTION for Extension of Time to File Response/Reply as to 1 Motion to

Vacate/Set Aside/Correct Sentence (2255) by USA. (Morrissey, Kit) (Entered:
05/06/2015)
05/07/2015

5 ORDER granting 4 Motion for Extension of Time to File Response/Reply.
The Government shall have up to and including July 10, 2015, to respond to
the petitioner's § 2255 motion. Signed by Judge j. Phil Gilbert on 5/7/15.
(tlp)THIS TEXT ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 05/07/2015)

05/22/2015

6 MOTION to Amend/Correct 1 Motion to Vacate/Set Aside/Correct Sentence

(2255) by Matthew Lee Staszak. (Attachments: # 1 envelope)(Proposed
amended document was not included with motion)(cds) (Entered: 05/22/2015)
ORDER granting 6 Motion to Amend/Correct. The Court construes the
motion as a supplement to Staszak's § 2255 motion and ORDERS the
Government to respond to the new Ground 13 in its response. Signed by
Judge J. Phil Gilbert on 5/27/15. (tlp)THIS TEXT ENTRY IS AN ORDER OF
THE COURT. NO FURTHER DOCUMENTATION WILL BE MAILED.
(Entered: 05/27/2015)

05/27/2015

7

07/10/2015

8 STRICKEN per notice at doc 9 - MOTION for Order toAuthorize Defense

Counsel to Provide Written Response and Motion for an Additional 45 Days
After Receipt of the Written Response to Respond to Petitioner's 2255
Motion by USA. (Scott, Angela) Modified on 7/13/2015 (msd). (Entered:
07/10/2015)

07/13/2015

9 NOTICE STRIKING ELECTRONICALLY FILED DOCUMENTS
striking 8 Motion for Order filed by USA. See attached document for specifics
(msd) (Entered: 07/13/2015)

07/14/2015

10 MOTION for Order toAuthorize Defense Counsel to Provide Written
Response, MOTION for Extension of Time to File Response/Reply as
to 1 Motion to Vacate/Set Aside/Correct Sentence (2255) by USA. (Morrissey,
Kit) (Entered: 07/14/2015)

07/17/2015

11 RESPONSE to Motion re 10 MOTION for Order toAuthorize Defense
Counsel to Provide Written Response MOTION for Extension of Time to File
Response/Reply as to 1 Motion to Vacate/Set Aside/Correct Sentence
(2255) filed by Matthew Lee Staszak. (cds) (Entered: 07/17/2015)

07/21/2015

12 MEMORANDUM AND ORDER, granting 10 MOTION for Order
toAuthorize Defense Counsel to Provide Written Response MOTION for
Extension of Time to File Response/Reply as to 1 Motion to Vacate/Set
Aside/Correct Sentence (2255) filed by USA. Signed by Judge J. Phil Gilbert
on 7/21/2015. (jdh) (Entered: 07/21/2015)

09/04/2015

13 MOTION for Extension of Time to File Response/Reply as to 1 Motion to
Vacate/Set Aside/Correct Sentence (2255) and (6) Amended 2255 Motion by
USA. (Morrissey, Kit) (Entered: 09/04/2015)

09/08/2015

14 ORDER granting 13 Motion for Extension of Time to File Response
to 1 Motion to Vacate/Set Aside/Correct Sentence (2255) and 6 Supplement to
2255 Motion. The Government shall have up to and including October 9,
2015, to respond to the petitioner's § 2255 motion and its supplement. Signed
by Judge J. Phil Gilbert on 9/8/15. (tlp)THIS TEXT ENTRY IS AN ORDER
OF THE COURT. NO FURTHER DOCUMENTATION WILL BE MAILED.
(Entered: 09/08/2015)

09/14/2015

15 RESPONSE to Motion re 13 MOTION for Extension of Time to File
Response/Reply as to 1 Motion to Vacate/Set Aside/Correct Sentence
(2255) and (6) Amended 2255 Motion filed by Matthew Lee Staszak. (cds)
(Entered: 09/14/2015)

10/05/2015

16 MOTION Requiring the Government to Obtain Permission from Court Prior
to any Contact with the Federal Bureau of Prisons Regarding Movant's Case
by Matthew Lee Staszak. (cds) (Entered: 10/05/2015)

10/09/2015

17 MOTION for Extension of Time to File Response/Reply as to 1 Motion to
Vacate/Set Aside/Correct Sentence (2255) and 6 Amended 2255 Motion by
USA. (Morrissey, Kit) (Entered: 10/09/2015)

10/09/2015

18 ORDER granting 17 Motion for Extension of Time to File Response
to 1 Motion to Vacate/Set Aside/Correct Sentence (2255) and 6 Amended
2255 Motion. Response due by 10/23/2015. Signed by Judge J. Phil Gilbert on
10/9/15. (tlp)THIS TEXT ENTRY IS AN ORDER OF THE COURT. NO
FURTHER DOCUMENTATION WILL BE MAILED. (Entered: 10/09/2015)

10/23/2015

19 STRICKEN - RESPONSE to 6 Motion to Amend/Correct, 1 Motion to
Vacate/Set Aside/Correct Sentence (2255) filed by USA. (Attachments:

# 1 Exhibit Day affidavit, # 2 Exhibit Kavanaugh affidavit, # 3 Exhibit Martin
affidavit, # 4 Exhibit Jones affidavit, # 5 Exhibit Krug affidavit, # 6 Exhibit
Letters, # 7 Exhibit Letter)(Morrissey, Kit) Modified on 10/26/2015 (slh).
(Entered: 10/23/2015)
10/23/2015

20 RESPONSE to 6 Motion to Amend/Correct, 1 Motion to Vacate/Set

Aside/Correct Sentence (2255) filed by USA. (Attachments: # 1 Exhibit Day
affidavit, # 2 Exhibit Kavanaugh affidavit, # 3 Exhibit Martin affidavit,
# 4 Exhibit Jones affidavit, # 5 Exhibit Krug affidavit, # 6 Exhibit Letters,
# 7 Exhibit Letter)(Morrissey, Kit) (Entered: 10/23/2015)
10/26/2015

21 MOTION to Withdraw 19 Response, by USA. (Morrissey, Kit) (Entered:
10/26/2015)

10/26/2015

22

11/05/2015

23 ORDER denying 16 Motion for Order Requiring the Government to Obtain

ORDER granting 21 Motion to Withdraw 19 Response. Document was filed
in error. Correct response was filed at 20 . The Clerk of Court is DIRECTED
to strike 19 Response. Signed by Judge J. Phil Gilbert on 10/26/15. (tlp)THIS
TEXT ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 10/26/2015)
Permission from Court Prior to any Contact with the Federal Bureau of
Prisons Regarding Movant's Case. Staszak has provided no authority for the
relief he requests. To the extent he believes he needs an extension of time in
this case because of his conditions of confinement, he is free to request one.
Signed by Judge J. Phil Gilbert on 11/5/15. (tlp)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 11/05/2015)

11/05/2015

24 MOTION for Extension of Time to File a Reply Brief by Matthew Lee

Staszak. (cds) (Entered: 11/05/2015)
11/05/2015

25 ORDER granting 24 Motion for Extension of Time to Reply

to 20 Government's Response. Reply due 12/18/15. Signed by Judge J. Phil
Gilbert on 11/5/15. (dp)THIS TEXT ENTRY IS AN ORDER OF THE
COURT. NO FURTHER DOCUMENTATION WILL BE MAILED. (Entered:
11/05/2015)
12/14/2015

26 Reply to 20 Response to Movant's Petition to Vacate, Set Aside, or Correct
Sentence filed by Matthew Lee Staszak. (cds) (Entered: 12/15/2015)

01/14/2016

27 MOTION for Order by Matthew Lee Staszak. (cds) (Entered: 01/14/2016)

01/28/2016

28

ORDER dismissing 27 Motion for Order. In this motion, Staszack asks to be
transferred from the custody of the Bureau of Prisons to the United States
Marshals Service. He is unhappy with the treatment he is receiving where he
is currently incarcerated, including his ability to access the law library. The
Court does not have jurisdiction to consider this motion. If Staszak is unhappy
with the conditions of his current confinement, he may seek an administrative
remedy where he is housed. If his inability to access the law library prevents
him from meeting a court deadline, he may petition the court for an extension
of that deadline. Signed by Judge J. Phil Gilbert on 1/28/16. (tlp)THIS TEXT

ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 01/28/2016)
09/06/2016

29 MOTION to Expedite Ruling by Matthew Lee Staszak. (cds) (Entered:
09/06/2016)

09/19/2016

30

11/14/2016

31 MOTION to Amend/Correct 1 Motion to Vacate/Set Aside/Correct Sentence
(2255) by Matthew Lee Staszak. (cds) (Entered: 11/14/2016)

01/17/2017

32

STRICKEN - Notice of Appeal by Matthew Lee Staszak. (cds) Modified on
1/19/2017 (cds). (Entered: 01/18/2017)

01/17/2017

33

STRICKEN - USCA Case Number 17-1108 for 32 Notice of Appeal filed by
Matthew Lee Staszak. (Attachments: # 1 notice of docketing, # 2 fee notice)
(cds) Modified on 1/19/2017 (cds). (Entered: 01/18/2017)

01/17/2017

36 NOTICE of USCA Case Number 17-1108 in re filing of Writ of Mandamus

MOTION for Discovery by Matthew Lee Staszak. (cds) (Entered:
09/19/2016)

(Attachments: # 1 notice of docketing, # 2 fee notice)(cds) (Entered:
01/19/2017)
01/19/2017

34 NOTICE STRIKING ELECTRONICALLY FILED DOCUMENTS

striking 32 Notice of Appeal filed by Matthew Lee Staszak. Pleading was
docketed in error. (cds)THIS TEXT ENTRY IS AN ORDER OF THE
COURT. NO FURTHER DOCUMENTATION WILL BE MAILED. (Entered:
01/19/2017)
01/19/2017

35 NOTICE STRIKING ELECTRONICALLY FILED DOCUMENTS

striking 33 USCA Case Number. Clerk's Office selected incorrect event.
Notice will be refilled using correct event. (cds)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 01/19/2017)
01/20/2017

37

ORDER granting 31 Motion to Amend. The Court construes the motion as a
supplement to Staszak's § 2255 motion and ORDERS that the Government
shall have 60 days from the date of this order to respond to Grounds 13 and
14. Staszak shall have 30 days from the Government's response to file a reply
brief. Signed by Judge J. Phil Gilbert on 1/20/17. (tlp)THIS TEXT ENTRY IS
AN ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL
BE MAILED. (Entered: 01/20/2017)

01/20/2017

38

ORDER deferring ruling on 30 Motion for Discovery. The Government shall
have 30 days from the date of this order to respond to this motion. Signed by
Judge J. Phil Gilbert on 1/20/17. (tlp)THIS TEXT ENTRY IS AN ORDER OF
THE COURT. NO FURTHER DOCUMENTATION WILL BE MAILED.
(Entered: 01/20/2017)

01/25/2017

39 USCA ORDER Denying the Petition for Writ of Mandamus.(cds) (Entered:
01/25/2017)

01/31/2017

40

MOTION for Bond Pending Decision of the 28:2255 Motion by Matthew Lee
Staszak. (jlrr) (Entered: 01/31/2017)

02/13/2017

41 Letter regarding Writ of Mandamus from Mattew L. Staszak (cds) (Entered:
02/13/2017)

02/21/2017

42 RESPONSE to Motion re 30 MOTION for Discovery and to Unseal

Documents filed by USA. (Morrissey, Kit) (Entered: 02/21/2017)
02/22/2017

43 EXHIBIT by USA. Exhibit to 42 Response to Motion . (Attachments:

# 1 Exhibit)(Morrissey, Kit) (Entered: 02/22/2017)
02/28/2017

44 REPLY to Response to Motion re 30 MOTION for Discovery filed by

Matthew Lee Staszak. (slj2) (Entered: 02/28/2017)
02/28/2017

45

MOTION to Strike 42 Response to Motion by Matthew Lee Staszak. See
Doc. 44. (slj2) (Entered: 03/01/2017)

03/07/2017

46 Petition to Attach and Incorporate Exhibits by Matthew Lee Staszak. (cds)

(Entered: 03/07/2017)
03/21/2017

47 RESPONSE to Motion re 31 MOTION to Amend/Correct 1 Motion to

Vacate/Set Aside/Correct Sentence (2255), 6 MOTION to
Amend/Correct 1 Motion to Vacate/Set Aside/Correct Sentence (2255) filed
by USA. (Morrissey, Kit) (Entered: 03/21/2017)
04/21/2017

48 MOTION for Extension of Time to File Reply as to 47 Response to Motion by

Matthew Lee Staszak. (Attachments: # 1 Exhibit)(cds) (Entered: 04/24/2017)
04/24/2017

49 MOTION for Extension of Time to File Reply as to 47 Response to Motion by
Matthew Lee Staszak. (Attachments: # 1 Exhibit)(cds) (Entered: 04/24/2017)

04/26/2017

50 ORDER granting 49 Motion for Extension of Time to File Reply. Petitioner

shall have up to and including May 26, 2017, to file a reply to the
Government's response to his § 2255 motion. This ruling renders
the 29 Motion for an Expedited Ruling and 48 Motion for Extension of Time
moot. Signed by Judge J. Phil Gilbert on 4/26/17. (tlp)THIS TEXT ENTRY IS
AN ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL
BE MAILED. (Entered: 04/26/2017)
04/27/2017

Set Deadlines: Petitioner's Reply to Government's Response to § 2255 motion
due by 5/26/2017. (kek) (Entered: 04/27/2017)

05/08/2017

51 REPLY to Response to Motion re 31 MOTION to Amend/Correct 1 Motion to
Vacate/Set Aside/Correct Sentence (2255) filed by Matthew Lee Staszak.
(Attachments: # 1 Exhibit)(cds) (Entered: 05/08/2017)

05/08/2017

52

MOTION to Stay Proceedings by Matthew Lee Staszak. (cds) (Entered:
05/08/2017)

05/09/2017

53

ORDER denying 52 Motion to Stay. Staszak asks the Court to stay these
proceedings until he has adequate time to prepare a reply brief in support of
his § 2255 motion. Apparently, he is now confined in the special housing unit
with insufficient access to materials and resources to prepare his reply. The
Court notes, however, that Staszak has already filed his 51 reply brief, so no
stay is necessary. Signed by Judge J. Phil Gilbert on 5/9/17. (tlp)THIS TEXT
ENTRY IS AN ORDER OF THE COURT. NO FURTHER

DOCUMENTATION WILL BE MAILED. (Entered: 05/09/2017)
06/12/2017

54 Petition to Attach and Incorporate Exhibit Z in support of his section 2255
Motion by Matthew Lee Staszak. (Exhibit Z received and is under review)
(cds) (Entered: 06/12/2017)

06/19/2017

55 ORDER granting 46 Petition to Attach and Incorporate Exhibits;
granting 54 Motion to Supplement with Exhibit Z. The Court will consider
Exhibits J-S, which are attached to Staszak's petition to attach, in deciding the
motions pending in this case. The Court DIRECTS the Clerk of Court to file
the tendered Exhibit Z as a supplement to Staszak's 51 reply in support of his
§ 2255 motion. The Court further ORDERS that the Government shall have
30 days from the date of this order to supplement its response to Staszak's §
2255 motion in light of these additional exhibits, if it believes a supplement is
required. No further supplements to Staszak's § 2255 motion briefing will be
allowed absent extraordinary circumstances. Signed by Judge J. Phil Gilbert
on 6/19/17. (tlp)THIS TEXT ENTRY IS AN ORDER OF THE COURT. NO
FURTHER DOCUMENTATION WILL BE MAILED. (Entered: 06/19/2017)

06/20/2017

56 SUPPLEMENT to 51 Reply to Response to Motion by Matthew Lee Staszak.
(kek) (Entered: 06/20/2017)

07/19/2017

57 MOTION for Extension of Time to File Supplement to Response to
Petitioner's 2255 Petition by USA. (Morrissey, Kit) (Entered: 07/19/2017)

07/19/2017

58 ORDER granting 57 Motion for Extension of Time to File. The Government's
response is due August 2, 2017. Signed by Judge J. Phil Gilbert on 7/19/17.
(dp)THIS TEXT ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 07/19/2017)

07/20/2017

Set Deadlines: Government's Response due by 8/2/2017 (kek) (Entered:
07/20/2017)

07/28/2017

59 MOTION for Extension of Time to Reply to Government's Response by
Matthew Lee Staszak. (cds) (Entered: 07/28/2017)

08/02/2017

60 RESPONSE to Motion re 54 MOTION to Supplement, 46 MOTION filed by
USA. (Morrissey, Kit) (Entered: 08/02/2017)

08/10/2017

61 REPLY to Response to Motion re 54 MOTION to Supplement, 46 MOTION
filed by Matthew Lee Staszak. (jsm2) (Entered: 08/10/2017)

08/10/2017

62 ORDER denying as moot 59 Motion for Extension of Time in light of
petitioner Staszak's 61 reply filed August 10,2017. Signed by Judge J. Phil
Gilbert on 8/10/2017. (dp)THIS TEXT ENTRY IS AN ORDER OF THE
COURT. NO FURTHER DOCUMENTATION WILL BE MAILED. (Entered:
08/10/2017)

11/21/2017

63 MEMORANDUM AND ORDER, denying 30 MOTION for Discovery filed
by Matthew Lee Staszak, denying 40 MOTION for Bond filed by Matthew
Lee Staszak, and denying 45 MOTION to Strike 42 Response to Motion filed
by Matthew Lee Staszak. The Court RESERVES RULING on Staszak’s §
2255 motion (Docs. 1, 6 & 31), appoints Patricia Gross to represent Staszak at

the hearing only and sets an Evidentiary Hearing for 2/13/2018 01:30 PM in
Benton Courthouse before Judge J. Phil Gilbert. Signed by Judge J. Phil
Gilbert on 11/21/2017. (jdh) (Entered: 11/21/2017)
11/22/2017

64 NOTICE of Appearance by Patricia Gross on behalf of Matthew Lee Staszak
(Gross, Patricia) (Entered: 11/22/2017)

11/29/2017

65 Second MOTION for Bond by Matthew Lee Staszak. (cds) (Entered:
11/30/2017)

01/02/2018

66 Exhibit to 65 Second MOTION for Bond filed by Matthew Lee Staszak. (trb)
Modified on 1/3/2018 (kek). (Entered: 01/02/2018)

01/02/2018

67 Movant's Petition for the withdrawal of appointed counsel and as attorney of
record in the above entitled cause by Matthew Lee Staszak.(trb) (Entered:
01/02/2018)

01/03/2018

68 NOTICE OF MODIFICATION re 66 Motion for Bond filed by Matthew Lee
Staszak. Document filed is an Exhibit to the Motion for Bond filed at
Document 65 . Docket text has been modified accordingly. This notice is sent
for informational purposes only, (kek)THIS TEXT ENTRY IS AN ORDER
OF THE COURT. NO FURTHER DOCUMENTATION WILL BE MAILED.
(Entered: 01/03/2018)

01/05/2018

69 MEMORANDUM AND ORDER, denying 65 MOTION for Bond filed by
Matthew Lee Staszak. Signed by Judge J. Phil Gilbert on 1/5/2018. (jdh)
(Entered: 01/05/2018)

01/09/2018

70 STRICKEN - MOTION to Withdraw as Attorney by Matthew Lee Staszak.
(Gross, Patricia) Modified on 1/9/2018 (kek). (Entered: 01/09/2018)

01/09/2018

71 NOTICE STRIKING ELECTRONICALLY FILED DOCUMENTS
striking 70 Motion to Withdraw as Attorney filed by Matthew Lee Staszak.
Document stricken at the request of the filer. Corrected motion to be filed.
(kek)THIS TEXT ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 01/09/2018)

01/09/2018

72 MOTION to Withdraw as Attorney by Matthew Lee Staszak. (Gross, Patricia)
(Entered: 01/09/2018)

01/10/2018

73 ORDER, granting 67 MOTION to Withdraw filed by Matthew Lee Staszak
and 72 MOTION to Withdraw as Attorney filed by Matthew Lee Staszak.The
Court appoints CJA Panel Attorney Terry Green to represent Staszak for the
hearing. Signed by Judge J. Phil Gilbert on 1/10/2018. (jdh) (Entered:
01/10/2018)

01/10/2018

74 NOTICE of Appearance by Terry M. Green on behalf of Matthew Lee Staszak
(Green, Terry) (Entered: 01/10/2018)

01/11/2018

75 STRICKEN PER ORDER AT DOC.#78- MOTION Request to Attend the
Feburary 13, 2018, Evidentiary Hearing at 1:30pm in the Benton Courthouse,
in Civilian Attire - A Suit and Tie Before Judge Gilbert by Matthew Lee
Staszak. (tkm) Modified on 1/18/2018 (jdh). (Entered: 01/11/2018)

01/18/2018

76

STRICKEN PER ORDER AT DOC.#79- MOTION to Strike 72 MOTION to
Withdraw as Attorney by Matthew Lee Staszak. (cds) Modified on 1/19/2018
(jdh). (Entered: 01/18/2018)'

01/18/2018

71

STRICKEN PER ORDER AT DOC.#79- MOTION to Amend 76 MOTION to
Strike re 72 MOTION to Withdraw as Attorney by Matthew Lee Staszak.
(cds) Modified on 1/19/2018 (jdh). (Entered: 01/18/2018)

01/18/2018

78

MEMORANDUM AND ORDER, striking 75 MOTION Request to Attend
the February 13, 2018, Evidentiary Hearing at 1:30pm in the Benton
Courthouse, in Civilian Attire * A Suit and Tie Before Judge Gilbert filed by
Matthew Lee Staszak. Signed by Judge J. Phil Gilbert on 1/18/2018. (jdh)
(Entered: 01/18/2018)

01/19/2018

79 MEMORANDUM AND ORDER, striking 76 MOTION re 72 MOTION to
Withdraw as Attorney and 77 MOTION to Amend/Correct filed by Matthew
Lee Staszak. Signed by Judge J. Phil Gilbert on 1/19/2018. (jdh) (Entered:
01/19/2018)

02/06/2018

80

02/07/2018

81 ORDER Granting 80 MOTION to Continue Evidentiary Hearing filed by
Matthew Lee Staszak. The Evidentiary Hearing is Reset for 3/8/2018 at 1:30
PM in Benton Courthouse before Judge J. Phil Gilbert. Signed by Judge J.
Phil Gilbert on 2/7/2018. (tag)THIS TEXT ENTRY IS AN ORDER OF THE
COURT. NO FURTHER DOCUMENTATION WILL BE MAILED. (Entered:
02/07/2018)

03/06/2018

82

MOTION to Continue Evidentiary Hearing by Matthew Lee Staszak. (Green,
Terry) (Entered: 03/06/2018)

03/07/2018

83

ORDER GRANTING 82 MOTION to Continue Evidentiary Hearing filed by
Matthew Lee Staszak. The Evidentiary Hearing is Reset for 3/22/2018 at 1:30
PM in Benton Courthouse before Judge J. Phil Gilbert. Signed by Judge J.
Phil Gilbert on 3/7/2018. (tag)THIS TEXT ENTRY IS AN ORDER OF THE
COURT. NO FURTHER DOCUMENTATION WILL BE MAILED. (Entered:
03/07/2018)

03/22/2018

84 Minute Entry for proceedings held before Judge J. Phil Gilbert: Evidentiary

MOTION to Continue (Re-Set Evidentiary Hearing) by Matthew Lee Staszak..
(Green, Terry) (Entered: 02/06/2018)

Hearing held on 3/22/2018. Evidentiary Hearing is continued to 3/23/2018 at
9:00 AM in Benton Courthouse before Judge J. Phil Gilbert. (Court Reporter
Stephanie Rennegarbe.) (tag) (Entered: 03/22/2018)
03/23/2018

85 Minute Entry for proceedings held before Judge J. Phil Gilbert: Evidentiary

Hearing held on 3/23/2018. The Evidentiary Hearing is continued to
4/16/2018 at 9:00 AM in Benton Courthouse before Judge J. Phil Gilbert.
(Court Reporter Christine Dohack.) (tag) (Entered: 03/23/2018)
03/30/2018

86 Transcript of Evidentiary Hearing (Volume #1) held on 03-22-2018, before

Judge J. Phil Gilbert. Court Reporter Stephanie Rennegarbe, Telephone
number 618-439-7735.

NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TransPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter/Transcriber before the deadline for Release of Transcript
Restriction. After that date it may be obtained through PACER. Redaction
Request due 4/20/2018. Redacted Transcript Deadline set for 4/30/2018.
Release of Transcript Restriction set for 6/28/2018. (skr) (Entered:
03/30/2018)
04/04/2018

87 Transcript of Evidentiary Hearing (Volume #2) held on 03/23/2018, before
Judge J. Phil Gilbert. Court Reporter Christine Dohack, Telephone number
(618) 439-7725.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TransPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter before the deadline for Release of Transcript Restriction. After
that date it may be obtained through PACER. Redaction Request due
4/25/2018. Redacted Transcript Deadline set for 5/7/2018. Release of
Transcript Restriction set for 7/3/2018. (cad) (Entered: 04/04/2018)

04/04/2018

88 NOTICE of Intent to Request Redaction by Kit R. Morrissey
re 86,87 Transcript. (Morrissey, Kit) (Entered: 04/04/2018)

04/12/2018

89 MOTION for In Camera Review of Trial Counsel's Documents, Emails, and
Notes by USA. (Morrissey, Kit) (Entered: 04/12/2018)

04/12/2018

90 ORDER granting 89 Motion in camera review. Documents in question shall
be delivered to chambers by 8:30 a.m. Friday, April 13, 2018, for review.
Signed by Judge J. Phil Gilbert on 4/11/2018. (tlp)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 04/12/2018)

04/13/2018

91 ORDER re: disclosure of documents by Staszak's former counsel AFPD
Melissa Day. The Court has reviewed in camera the documents submitted by
Day this morning and finds that, in light of the nature of petitioner Matthew
Lee Staszak's allegations of Day's ineffective assistance as counsel brought in
this § 2255 proceeding, he has waived the attorney-client privilege as to all
parts of the submitted documents, all of which are relevant to the matters at
issue before the Court. "It has long been the rule in the federal courts that,

where a habeas petitioner raises a claim of ineffective assistance of counsel,
he waives the attorney-client privilege as to all communications with his
allegedly ineffective lawyer." Bittaker v. Woodford, 331 F.3d 715, 716-17 (9th
Cir. 2003); Smith v. Berge, 139 F.3d 902, at *2 (7th Cir. 1998) (Table); Seifer
v. United States, 225 F. Supp. 3d 811, 812 (E.D. Wis. 2016); see Garcia v.
Zenith Elec. Corp., 58 F.3d 1171,1175 n. 1 (7th Cir.1995) ("We note that the
attorney-client privilege is generally waived when the client asserts claims or
defenses that put his attorney's advice at issue in the litigation."). Accordingly,
pursuant to United States v. Evans, 113 F.3d 1457 (7th Cir. 1997), the Court
authorizes Day to disclose the documents to the Government's counsel. Signed
by Judge J. Phil Gilbert on 4/13/2018. (tlp)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 04/13/2018)
04/16/2018

92 Minute Entry for proceedings held before Judge J. Phil Gilbert: Evidentiary
Hearing held on 4/16/2018. The Evidentiary Hearing is continued to
4/19/2018 at 9:00 AM in Benton Courthouse before Judge J. Phil Gilbert.
(Court Reporter Stephanie Rennegarbe.) (tag) (Entered: 04/16/2018)

04/19/2018

93 Transcript Redaction Request re 87 Transcript,,,, by attorney Kit R. Morrissey.
(Morrissey, Kit) (Entered: 04/19/2018)

04/19/2018

94 Minute Entry for proceedings held before Judge J. Phil Gilbert: Evidentiary
Hearing held on 4/19/2018. The Evidentiary Hearing is continued to
4/25/2018 at 1:30 PM in Benton Courthouse before Judge J. Phil Gilbert.
(Court Reporter Stephanie Rennegarbe.) (tag) (Entered: 04/19/2018)

04/24/2018

95 Mail Returned as Undeliverable.(doc 63) Orginally sent to Matthew Lee
Staszak (cds) (Entered: 04/24/2018)

04/25/2018

96 MEMORANDUM AND ORDER, The Court GRANTS the request (Doc. 93),
but ORDERS that the material requested to be redacted be blacked out, the
policy in this Court, rather than replaced by initials. The Court ORDERS that
the unredacted transcript shall be kept under seal and not made publicly
available. Signed by Judge J. Phil Gilbert on 4/25/2018. (jdh) (Entered:
04/25/2018)

04/25/2018

97 Minute Entry for proceedings held before Judge J. Phil Gilbert: Evidentiary
Hearing held on 4/25/2018. Written Order to follow. (Court Reporter
Stephanie Rennegarbe.) (tag) (Entered: 04/26/2018)

04/26/2018

98 Exhibit and Witness List, (tag) (Entered: 04/26/2018)

05/09/2018

99 Transcript of Evidentiary Hearing (Volume #3) held on 04-16-2018, before
Judge J. Phil Gilbert. Court Reporter Stephanie Rennegarbe, Telephone
number 618-439-7735.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the

website at http://www.iIsd.uscourts.gov/forms/TransPoIicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter/Transcriber before the deadline for Release of Transcript
Restriction. After that date it may be obtained through PACER. Redaction
Request due 5/30/2018. Redacted Transcript Deadline set for 6/11/2018.
Release of Transcript Restriction set for 8/7/2018. (skr) (Entered: 05/09/2018)
05/09/2018

100 Transcript of Evidentiary Hearing (Volume #4) held on 04-19-2018, before
Judge J. Phil Gilbert. Court Reporter Stephanie Rennegarbe, Telephone
number 618-439-7735.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscburts.gov/forms/TransPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter/Transcriber before the deadline for Release of Transcript
Restriction. After that date it may be obtained through PACER. Redaction
Request due 5/30/2018. Redacted Transcript Deadline set for 6/11/2018.
Release of Transcript Restriction set for 8/7/2018. (skr) (Entered: 05/09/2018)

05/09/2018

101 Transcript of Evidentiary Hearing (Volume #5) held on 04-25-2018, before
Judge J. Phil Gilbert. Court Reporter Stephanie Rennegarbe, Telephone
number 618-439-7735.
NOTICE: Attorneys and unrepresented parties have 7 calendar days to
file a Notice of Intent to Request Redaction of this transcript and 21
calendar days to file a Redaction Request. If redactions are not requested,
the transcript will be made remotely available to the public without
redaction after 90 calendar days. See the full Transcript Policy on the
website at http://www.ilsd.uscourts.gov/forms/TransPolicv.pdf
Transcript may be viewed at the public terminal or purchased through the
Court Reporter/Transcriber before the deadline for Release of Transcript
Restriction. After that date it may be obtained through PACER. Redaction
Request due 5/30/2018. Redacted Transcript Deadline set for 6/11/2018.
Release of Transcript Restriction set for 8/7/2018. (skr) (Entered: 05/09/2018)

05/16/2018

102 Redacted Transcript of 87 Transcript of 03/23/2018 Proceedings, (cad)
(Entered: 05/16/2018)

05/16/2018

103 First MOTION for Extension of Time to File Argument by Matthew Lee
Staszak. (Green, Terry) (Entered: 05/16/2018)

05/16/2018

104 MOTION To Return Petitioner to the Southern District of Illinois by Matthew
Lee Staszak. (Green, Terry) (Entered: 05/16/2018)

05/24/2018

105 MEMORANDUM AND ORDER, The Court DENIES Staszak's motion for
return to the Southern District of Illinois (Doc. 104) and GRANTS his motion
for an extension of time to file his post-hearing brief (Doc. 103). Signed by
Judge J. Phil Gilbert on 5/24/2018. (jdh) (Entered: 05/24/2018)

05/25/2018

Set Deadlines: Petitioner's Brief due by 7/27/2018, Government's Response
Brief due by 8/24/2018. (kek) (Entered: 05/25/2018)

07/24/2018

106 Second MOTION for Extension of Time to File Argument by Matthew Lee
Staszak. (Green, Terry) (Entered: 07/24/2018)

07/25/2018

107 ORDER granting 106 Motion for Extension of Time to File Argument.
Petitioner shall have up to and including August 31,2018, to file his post­
hearing brief. The Government shall have up to and including September 28,
2018, to file a response brief. Signed by Judge J. Phil Gilbert on 7/25/2018.
(dp)THIS TEXT ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 07/25/2018)

07/26/2018

Set Deadlines: Petitioner's Brief due by 8/31/2018; Government's Response
due by 9/28/2018. (kek) (Entered: 07/26/2018)

08/31/2018

108 Third MOTION to Continue by Matthew Lee Staszak. (Green, Terry)
(Entered: 08/31/2018)

09/04/2018

109 ORDER granting 108 Motion to Continue. Petitioner shall have up to and
including September 21, 2018, to file his post-hearing brief. The Government
shall have up to and including October 26, 2018, to file a response brief.
Signed by Judge J. Phil Gilbert on 9/4/2018. (tlp)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 09/04/2018)

09/04/2018

Set Deadlines: Petitioner's Brief due by 9/21/2018, Government's
Responsesdue by 10/26/2018. (kek) (Entered: 09/04/2018)

09/21/2018

110 Fourth SEALED MOTION by Matthew Lee Staszak. (Green, Terry) (Entered:
09/21/2018)

09/25/2018

111 ORDER granting 110 Sealed Motion for extension of time. Petitioner shall
have up to and including October 12,2018, to file his post-hearing brief. The
Government shall have up to and including November 16, 2018, to file a
response brief. THE COURT WILL GRANT NO FURTHER EXTENSION
OF TIME FOR THE PETITIONER'S BRIEF ABSENT EXTRAORDINARY
CIRCUMSTANCES. Should the petitioner fail to file a timely brief, the Court
will consider his § 2255 motion without the benefit of further briefing. Signed
by Judge J. Phil Gilbert on 9/25/2018. (tlp)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 09/25/2018)

09/26/2018
10/02/2018

Set Deadlines: Petitioner's Brief due by 10/12/2018, Government's Response
due by 11/16/2018. (kek) (Entered: 09/26/2018)
112 Sealed Document- Letter from Matthew L. Staszak. (jdh) (Entered:
10/02/2018)

10/10/2018

10/11/2018

113 ORDER extending deadline for Petitioner to file post-hearing brief. Due to a
death in Petitioner's counsel's family, Petitioner shall have up to and including
November 30, 2018, to file his post-hearing brief. The Government shall have
up to and including January 4, 2019, to file a response brief. Signed by Judge
J. Phil Gilbert on 10/10/2018. (tlp)THIS TEXT ENTRY IS AN ORDER OF
THE COURT. NO FURTHER DOCUMENTATION WILL BE MAILED.
(Entered: 10/10/2018)
Set Deadlines: Petitioner's Brief due by 11/30/2018, Government's Response
due by 1/4/2019. (kek) (Entered: 10/11/2018)

12/02/2018

114 MOTION for Leave to File Evidentiary Hearing Argument Instanter by
Matthew Lee Staszak. (Attachments: # 1 Exhibit Argument of Petitioner)
(Green, Terry) (Entered: 12/02/2018)

12/03/2018

115 ORDER granting 114 Motion for Leave to File and DIRECTING the Clerk
of Court to file the brief attached to the motion as a separate document.
Signed by Judge J. Phil Gilbert on 12/3/2018. (tlp)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 12/03/2018)

12/03/2018

116 Petitioner's Post-Hearing Brief by Matthew Lee Staszak. (kek) (Entered:
12/03/2018)

01/03/2019

117 First MOTION for Extension of Time by USA. (Morrissey, Kit) (Entered:
01/03/2019) .

01/04/2019

118 ORDER granting 117 Motion for Extension of Time. The United States shall
have up to and including March 1, 2019, to file its post-hearing brief. Signed
by Judge J. Phil Gilbert on 1/4/2019. (tlp)THIS TEXT ENTRY IS AN
ORDER OF THE COURT. NO FURTHER DOCUMENTATION WILL BE
MAILED. (Entered: 01/04/2019)

01/04/2019

Set Deadlines: Government's Post-Hearing Brief due by 3/1/2019 (kek)
(Entered: 01/04/2019)

02/05/2019

*119 STRICKEN - AFFIDAVITS by Matthew Lee Staszak. (cds) Modified on
2/12/2019 (cjo). (Entered: 02/06/2019)

02/08/2019

120 MEMORANDUM AND ORDER, The Court hereby ORDERS that Staszak's
pro se filing (Doc. 119) be STRICKEN. The Court DIRECTS the Clerk of
Court to return to Staszak unfiled any pro se motion he tenders in this case
while he is represented by counsel, except for a notice of appeal. Signed by
Judge J. Phil Gilbert on 2/8/2019. (jdh) (Entered: 02/08/2019)

03/01/2019

121 Second MOTION for Extension of Time to File Post-Hearing Brief by USA.
(Morrissey, Kit) (Entered: 03/01/2019)

03/04/2019

122 RESPONSE to Motion re 121 Second MOTION for Extension of Time to
File Post-Hearing Brief filed by Matthew Lee Staszak. (Green, Terry)
(Entered: 03/04/2019)

03/05/2019

123 ORDER granting 121 Motion for Extension of Time to File. The Government
shall have up to and including March 18, 2019, to file its post-hearing

response brief. Signed by Judge J. Phil Gilbert on 3/5/2019. (tlp)THIS TEXT
ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 03/05/2019)
03/06/2019

124 RESPONSE to 122 Response to Motion (AMENDED) filed by Matthew Lee
Staszak. (Green, Terry) (Entered: 03/06/2019)

03/18/2019

125 Third MOTION for Extension of Time to File Post-Hearing Brief by USA.
(Morrissey, Kit) (Entered: 03/18/2019)

03/22/2019

126 RESPONSE to Motion re 125 Third MOTION for Extension of Time to File
Post-Hearing Brief filed by Matthew Lee Staszak. (Green, Terry) (Entered:
03/22/2019)

03/26/2019

127 ORDER granting 125 Motion for Extension of Time. The Government shall
have up to and including April 8, 2019, to file its response brief. Signed by
Judge J. Phil Gilbert on 3/26/2019. (tlp)THIS TEXT ENTRY IS AN ORDER
OF THE COURT. NO FURTHER DOCUMENTATION WILL BE MAILED.
(Entered: 03/26/2019)

03/27/2019

Reset Deadlines as to Order #127 - Response Brief due by 4/8/2019. (cjo)
(Entered: 03/27/2019)

04/09/2019

128 MOTION for Leave to File Brief Following Limited Evidentiary Hearing on
Petitioner's 2255 Motion Instanter by USA. (Morrissey, Kit) (Entered:
04/09/2019)

04/09/2019

129 TRIAL BRIEF Government's Brief Following Limited Evidentiary Hearing
on Petitioner's 2255 Motion by USA. (Morrissey, Kit) (Entered: 04/09/2019)

04/12/2019

130 RESPONSE to Motion re 128 MOTION for Leave to File Brief Following
Limited Evidentiary Hearing on Petitioner's 2255 Motion Instanter Objection
to Government's Motion filed by Matthew Lee Staszak. (Green, Terry)
(Entered: 04/12/2019)

04/15/2019

131 ORDER granting 128 Motion for leave to file brief instanter. Brief at 129 is
deemed timely. Signed by Judge J. Phil Gilbert on 4/15/2019. (tlp)THIS
TEXT ENTRY IS AN ORDER OF THE COURT. NO FURTHER
DOCUMENTATION WILL BE MAILED. (Entered: 04/15/2019)

07/18/2019

132 Notice of USCA Case Number 19-2367 regarding filing of Writ of Mandamus
(Attachments: # 1 Case Opening, # 2 Fee Notice)(cds) (Entered: 07/18/2019)

07/24/2019

133 USCA-7 Notice denying the petition for a writ of mandamus, (cds) (Entered:
07/24/2019)

02/21/2020

134 MEMORANDUM AND ORDER, The Court DENIES Staszak's § 2255
motion and its supplements (Docs. 1, 6, & 31) and DIRECTS the Clerk of
Court to enter judgment accordingly. The Court further DECLINES to issue a
certificate of appealability. Signed by Judge J. Phil Gilbert on 2/21/2020. (jdh)
(Entered: 02/21/2020)

02/21/2020

135 CLERK'S JUDGMENT. Approved by Judge J. Phil Gilbert on 2/21/2020.
(jdh) (Entered: 02/21/2020)

03/05/2020

136 NOTICE OF APPEAL as to 135 Clerk's Judgment, 134 Memorandum &
Opinion, by Matthew Lee Staszak. (Green, Terry) (Entered: 03/05/2020)

03/06/2020

137 Transmission of Short Record to US Court of Appeals re 136 Notice of
Appeal (kek) (Entered: 03/06/2020)

03/06/2020

138 Rule 10 Letter (kek) (Entered: 03/06/2020)

03/06/2020

139 USCA Case Number 20-1381 for 136 Notice of Appeal filed by Matthew Lee
Staszak. (Attachments: # 1 Notice of Docketing)(cds) (Entered: 03/06/2020)

03/20/2020

140 TRANSCRIPT INFORMATION SHEET by Attomey/Pro Se Party (Green,
Terry) (Entered: 03/20/2020)

03/20/2020

141 TRANSCRIPT INFORMATION SHEET by Attomey/Pro Se Party (Green,
Terry) (Entered: 03/20/2020)

03/20/2020

142 TRANSCRIPT INFORMATION SHEET by Court Reporter(skr) (Entered:
03/20/2020)

03/20/2020

143 TRANSCRIPT INFORMATION SHEET re: 03/23/2018 Evidentiary Hearing,
Volume 2 at Doc. 87, by Court Reporter Chris Dohack LaBuwi (618) 4397725 (cad) (Entered: 03/20/2020)

12/17/2020

144 MANDATE of USCA AFFIRMING case as to 136 Notice of Appeal filed by
Matthew Lee Staszak (Attachments: # 1 Order, # 2 Order, # 3 Order)(ack)
(Entered: 12/17/2020)

PACER Service Center
Transaction Receipt
01/18/202115:54:38
PACER Login: dstasz55:4285915:0 Client Code:
Search
3:15-cv-00020Description: Docket Report
JPG
Criteria:
Cost:
1.10
Billable Pages: 11

\

A-10

D

General Docket
Seventh Circuit Court of Appeals
Court of Appeals Docket #: 17-1108
Matthew Lee Staszak v. J. Phil Gilbert
Appeal From: Southern District of Illinois
Fee Status: Paid
Case Type Information:
1) originalProceeding
2) nonPaidMandamus
3)-

Docketed: 01/17/2017
Termed: 01/24/2017

Originating Court Information:
District: 0754-3: 3:15-cv-00020-JPG
Trial Judge: J. Phil Gilbert, District Court Judge
01/17/20 _1_ Petition for Writ of Mandamus filed. Fee due. Fee or IFP forms due on 01/31/2017 for
Petitioner Matthew Lee Staszak. [1] [6812042] [17-1108] (CMD) [Entered:
17
01/17/2017 03:30 PM]
01/24/20
17

Notice of fee payment. Receipt #000183. [6813771-2] [6813771] [17-1108] (SK)
[Entered: 01/24/2017 01:33 PM]

01/24/20 _2_ ORDER re: Petition for Writ of Mandamus, filed on 1/17/17. The petition for a writ
of mandamus is DENIED. William J. Bauer, Circuit Judge; Diane S. Sykes, Circuit
17
Judge and David F. Hamilton, Circuit Judge. [2] [6813860] [17-1108] (FP) [Entered:
01/24/2017 03:33 PM]
01/24/20 11 FOR COURT USE ONLY: Certified copy of 01/24/2017 Mandamus Final Order sent
to the District Court Clerk. [6813878-2] [6813878] [17-1108] (FP) [Entered:
17
01/24/2017 03:42 PM]

PACER Service Center
PACER Login:
Description:
Billable Pages:

Transaction Receipt
7th Circuit Court of Appeals - 01/22/2021 19:05:53
dstasz55
Client Code:
Case Summary
Search Criteria:
1
Cost:

17-1108
0.10

A-ll

(

General Docket
Seventh Circuit Court of Appeals
Court of Appeals Docket #: 19-2367
Matthew Staszak v. J. Phil Gilbert
Appeal From: Southern District of Illinois
Fee Status: Paid
Case Type Information:
1) originalProceeding
2) nonPaidMandamus
3)-

Docketed: 07/18/2019
Termed: 07/24/2019

Originating Court Information:
District: 0754-3 : 3:15-cv-00020-JPG
Trial Judge: J. Phil Gilbert, District Court Judge
07/18/201 1
9

Petition for Writ of Mandamus filed. Fee due. Fee or IFP forms due on 08/01/2019
for Petitioner Matthew Lee Staszak [1] [7018161] [19-2367] (PS) [Entered:
07/18/2019 02:16 PM]

07/23/201 2
9

Notice of fee payment, $500.00. Receipt #00450. [2] [7018893] [19-2367] (CAH)
[Entered: 07/23/2019 11:59 AM]

07/24/201 3
9

ORDER re: Petition for writ of mandamus to compel United States district court to
issue a ruling on petitioner's outstanding section 2255 motion. IT IS ORDERED that
the petition for a writ of mandamus is DENIED. The court notes that post-hearing
briefing was completed in April of this year, so there has not been any unusual delay
that might call for the extraordinary relief of mandamus. William J. Bauer, Circuit
Judge; Diane S. Sykes, Circuit Judge and David F. Hamilton, Circuit Judge. [3]
[7019271] [19-2367] (AG) [Entered: 07/24/2019 03:07 PM]

07/24/201 H
9

FOR COURT USE ONLY: Certified copy of 07/24/2019 Mandamus Final Order
sent to the District Court Clerk. [7019283-2] [7019283] [19-2367] (AG) [Entered:
07/24/2019 03:17 PM]

08/05/201 S
9

15 copies filed Petition for Rehearing by Petitioner Matthew Lee Staszak. Dist.
[7021515-2] [7021515] [19-2367]~[Edited 08/05/2019 by CM] (CM) [Entered:
08/05/2019 11:38 AM]

09/09/201 4
9

ORDER: Petitioner Matthew Lee Staszak Petition for Rehearing is DENIED. (See
order for details.) [4] [7028990] [19-2367] (CG) [Entered: 09/09/2019 03:04 PM]

09/16/201 5
9

Pro se motion filed by Petitioner Matthew Lee Staszak to stay the mandate. [5]
[7030551] [19-2367] (FP) [Entered: 09/16/2019 04:10 PM]

09/18/201 6
9

ORDER re: Petition to stay mandate. [5] The motion is DENIED as unnecessary. A
stay is not necessary for Staszak to file a petition for writ of certiorari. EBG [6]
[7031190] [19-2367] (PS) [Entered: 09/18/2019 02:08 PM]

10/15/201 7
9

Filed letter from Petitioner Matthew Lee Staszak notifying our court of the Writ of
Mandamus filed in the U.S. Supreme Court with a copy of the mandamus. [7]
[7036889] [19-2367] (FP) [Entered: 10/16/2019 10:14 AM]

PACER Service Center
Transaction Receipt
7th Circuit Court of Appeals - 01/22/2021 19:07:53
PACER Login:

dstasz55

Client Code:

Description:
Billable Pages:

Case Summary
1

Search Criteria:
Cost:

19-2367
0.10

A-12

No. 19-6121
Title:

In Re Matthew Lee Staszak, Petitioner

Docketed:

October 2, 2019

Lower Ct:
DATE
Sep 17 2019

PROCEEDINGS AND ORDERS
Petition for a writ of mandamus and motion for leave to proceed in forma pauperis
filed. (Response due November 1, 2019)
Motion for Leave to Proceed in Forma PauperisPetitionAppendixProof of
Service

Oct 15 2019

Waiver of right of respondent United States to respond filed.
Main Document

Oct 24 2019

DISTRIBUTED for Conference of 11/8/2019.

Nov 12 2019

Petition DENIED.

Dec 03 2019

Petition for Rehearing filed.
Proof of ServiceMain Document

Jan 08 2020

DISTRIBUTED for Conference of 1/24/2020.

Jan 27 2020

Rehearing DENIED.

NAME

ADDRESS

PHONE

Attorneys for Petitioner
#24227-171
FCC (Low)
Matthew L. Staszak
PO Box 9000
Forrest City, AR 72336-9000
Party name: Matthew Lee Staszak
Attorneys for Respondent

Noel J. Francisco
Counsel of Record

Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
202-514-2217
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: United States

A-13

Court of Appeals Docket #: 20-1381
Nature of Suit: 2510 Prisoner Petition-Vacate Sentence
Matthew Staszak v. USA
Appeal From: Southern District of Illinois
Fee Status: In Forma Pauperis
Case Type Information:
1) prisoner
2) federal
3) 2255CaDenied

Docketed: 03/06/2020
Termed: 11/04/2020

Originating Court Information:
District: 0754-3: 3:15-cv-00020-JPG
Court Reporter: Christine Dohack, Court Reporter
Court Reporter: Stephanie Rennegarbe, Court Reporter
Trial Judge: J. Phil Gilbert, District Court Judge
Date Filed: 01/08/2015
Date NO A Filed:
Date Order/Judgment:
03/05/2020
02/21/2020
03/06/202 3
0

Motion filed by Appellant Matthew Lee Staszak for issuance of a certificate of
appealability pursuant to 28 U.S.C. § 2253(c). [3] [7067197] [20-1381] (AD)
[Entered: 03/06/2020 12:16 PM]

0

Docketing Statement filed by Appellant Matthew Lee Staszak. Prior or Related
proceedings: No. [4] [7068344] [20-1381] (JR) [Entered: 03/13/2020 09:18 AM]

03/25/202 5
0

Filed Seventh Circuit Transcript Information Sheets by Appellant Matthew Lee
Staszak. [5] [7070722] [20-1381] (JR) [Entered: 03/25/2020 11:37 AM]

11/04/202 6

ORDER: Matthew Staszak has filed a notice of appeal from the denial of his
motion under 28 U.S.C. § 2255 and an application for a certificate of appealability.
We have reviewed the final order of the district court and the record on appeal and
find no substantial showing of the denial of a constitutional right. See 28 U.S.C. §
2253(c)(2).Accordingly, Staszak’s request for a certificate of appealability and his
motion for appointment of appellate counsel are denied. Frank H. Easterbrook,
Circuit Judge and Amy J. St. Eve, Circuit Judge. [6] [7119655] [20-1381] (AG)
[Entered: 11/04/2020 04:30 PM]

03/12/202 4

0

11/18/202 7
0

12/03/202 8
0

12/15/202 9
0

12/15/202 10
0

30 copies Filed Petition for Rehearing and Petition for Rehearing Enbanc by
Appellant Matthew Lee Staszak. DIST. [7] [7122577] [20-1381] (CAH) [Entered:
11/18/2020 02:48 PM]
ORDER: Appellant Matthew Lee Staszak Petition for Rehearing and Petition for
Rehearing Enbanc is DENIED. [8] [7125490] [20-1381] (ER) [Entered: 12/03/2020
09:07 AM]
Pro se motion filed by Appellant Matthew Lee Staszak to stay the mandate. [9]
[7128480] [20-1381] (CAH) [Entered: 12/15/2020 10:23 AM]
ORDER re: Motion to stay the mandate. IT IS ORDERED that the motion is
DENIED as unnecessary. As this court has previously informed appellant, a stay is
not necessary to file a petition for a writ of certiorari. [9] JPK [10] [7128698] [20-

1381] (AP) [Entered: 12/15/2020 03:24 PM]
12/17/202 _11_ Mandate issued. No record to be returned. [11] [7129260] [20-1381] (GW)
0
[Entered: 12/17/2020 10:28 AM]
12/17/202 (1
0

FOR COURT USE ONLY: Certified copy of 11/04/2020 Final Order with Mandate
sent to the District Court Clerk. [7129261-2] [7129261] [20-1381] (GW) [Entered:
12/17/2020 10:32 AM]

PACER Service Center
Transaction Receipt
7th Circuit Court of Appeals - 01/14/2021 18:58:28

Court
Information

PACER Login:

dstasz55

Client Code:

Description:
Billable Pages:

Case Summary
1

Search Criteria:
Cost:

Court
Home

PACER Service
Center

Change
Client

20-1381
0.10

Rilling
History

Contact
Us

(

A-14

V

/

I

{

/

Case 4:12-cr-40064-JPG Document 69 Filed 08/06/13 Page 1 of 3 Page ID #212

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
UNITED STATES OF AMERICA,
Plaintiff,
vs.
MATTHEW STASZAK.,
Defendant.

)
)
)
)
)
)
)
)
)

CRIMINAL NO. 12-40064-JPG

STIPULATION OF FACTS
From approximately February 2011, continuing through May 29,2012, the Defendant, date
of birth December 15,1982, engaged in a sexual relationship with K.G., a person under the age of
17, with a date of birth of May 29,1995. On or about the dates named in the Second Superseding
Indictment, the Defendant resided in North Carolina, and K.G. resided in the Southern District of
Illinois.
On or about March 22, 2011, the Defendant traveled interstate from North Carolina to
Williamson County, Illinois, within the Southern District of Illinois, for the purpose of engaging in
illicit sexual conduct, that is, sexual intercourse, including genital to genital intercourse, with K.G.,
who was then 15 years old, and the two did engage in such conduct. (Count 2).
On or about May 29,201 l,K.G.’s 16th birthday, the Defendant traveled interstate from North
Carolina to Williamson County, Illinois, within the Southern District of Illinois, for the purpose of
engaging in illicit sexual conduct, that is, sexual intercourse, including genital to genital intercourse,
with K.G., and the two did engage in such conduct. (Count 3).
In or around June or July 2011, when K.G. was 16 years old, the Defendant used K.G. to take
part in sexually explicit conduct, that is, sexual intercourse, including genital to genital intercourse,

Case 4:12-cr-40064-JPG Document 69 Filed 08/06/13 Page 2 of 3 Page ID #213

for the purpose of producing a visual depiction of such conduct with his Verizon cellular telephone,
model Droid X2, bearing serial number SJUG6250, and the Defendant did produce such a visual
depiction that he and K.G. watched after it was produced. The Verizon cellular telephone is not
manufactured in the State of Illinois, and necessarily had traveled in interstate or foreign commerce
to be in Illinois at the time the visual depiction was created with it. (Count 1)
On or about October 4, 2012, at 11:30 a.m., the Defendant was scheduled for an initial
appearance on a superseding indictment in United States v. Matthew Staszak, Criminal No. 1240064-JPG, before Magistrate Judge Philip M. Frazier at the United States Courthouse in Benton,
Franklin County, within the Southern District of Illinois. The Defendant was on pretrial release
pursuant to Chapter 207 of Title 18, pending trial on an indictment in the same case for violations
of Title 18, United States Code, Sections 2251(a) and (e) and 2423(b), felony offenses. The
Defendant knowingly and willfully failed to appear as required on that date, having removed an
electronic ankle monitoring device the night before and fled the location ofhis electronic monitoring,
the home of his father, for the purpose of avoiding prosecution. The Defendant remained a fugitive
until his capture on June 2,2013.

2

Case 4:12-cr-40064-JPG Document 69 Filed 08/06/13 Page 3 of 3 Page ID #214

SO STIPULATED:

STEPHEN R. WIGGINTON
United States Attorney

z?
C
MATTHEW STASZAK
Defendant

ANGELA SCOTT
Assistant United States Attorney

i-

A

7

1

MELISSA DAY
Attorney for Defendant

KITjR. MORRISSEY
Assistant United States Attorney

Date: X

Date:

3

Stella

A-15

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 1 of 14 Page ID #215

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
UNITED STATES OF AMERICA,

)
)

Plaintiff,

)

Defendant.

)
)
)
)
)
)

vs.
MATTHEW STASZAK,

CRIMINAL NO. 12-40064-JPG

PLEA AGREEMENT
The attorneys for the Government and the attorneys for the Defendant have engaged in
discussions and have reached an agreement pursuant to Federal Rule of Criminal Procedure 11. As
a result of that agreement, the Defendant intends to plead guilty in this case. The full and complete
Plea Agreement is as follows:
I.
1.

Defendant acknowledges that he has been advised of and does folly understand the

following:
the nature of the charges to which the plea is offered, the mandatoiy
(a)
minimum penalty provided by law, if any, and the maximum possible penalty
provided by law, and
(b)
that he has the right to plead not guilty or to persist in that plea if it has
already been made, and he has the right to be tried by a jury and at that trial has the
right to the assistance of counsel, the right to confront and cross-examine witnesses
against him, and the right not to be compelled to incriminate himself; and
(c)
that ifhe pleads guilty, there will not be a further trial of any kind, so that by
pleading guilty, he waives the right to a trial; and
(d)
that ifhe pleads guilty, the Cotut may ask him questions about the offense to
which he has pleaded, and if he answers these questions under oath, on the record,

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 2 of 14 Page ID #216

and in the presence of counsel, his answers may later be used against him in a
prosecution for perjury or false statement; and
(e)
that if he pleads guilty, he will waive his right to persist in his plea of not
guilty, to be tried by a jury, to have assistance of counsel at the trial, and to confront
and cross-examine witnesses against him at trial; and
(f)
that if he pleads, he is pleading guilty to a felony punishable by a term of
imprisonment exceeding one year. Therefore, no matter what sentence the Court
imposes (whether probation or any term of imprisonment), he will be forbidden by
federal firearms laws from possessing any type of firearm in his lifetime, unless he
obtains relief pursuant to 18 U.S.C. § 925, or other appropriate federal statute.
2.

Defendant acknowledges that this Plea Agreement and Stipulation ofFacts constitutes

the entire agreement and that no promises, inducements or representations, other than those
specifically set forth in this Plea Agreement and Stipulation of Facts, were made to induce him to
enter into this Plea Agreement.
3.

It is further understood that this agreement is limited to the Southern District of

Illinois, and nothing herein is intended to bind other federal, state or local prosecuting authorities.
It is further understood that this Plea Agreement does not prohibit the United States, anv agency
thereof, or any third party from initiating or prosecuting anv civil proceedings directly or indirectly
involving the Defendant.
4.

Defendant understands that this offense is subject to Title 28, United States Code,

Section 994(a). Defendant has been advised and understands that the Sentencing Guidelines are
advisory and that the Court will consider the applicable Guidelines in conjunction with 18 U.S.C.
§ 3553(a), in determining the appropriate sentence.
5.

Defendant understands that pursuant to Title 18, United States Code, Section 3013,

the Court will assess a "Special Assessment" of $ 100 per felony count. Defendant understands that

2

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 3 of 14 Page ID #217

he will be ordered to pay the foil amount of the special assessment prior to or at the time of
sentencing.
6.

Defendant understands that the Court must impose a term of "supervised release" to

follow incarceration. See 18 U.S.C. § 3583; U.S.S.G. § 5D1.1.
7.

Defendant understands that the Court may impose a fine, costs of incarceration, and

costs of supervision and that the Government will recommend die imposition of a fine. The
estimated costs of such incarceration or community confinement or supervision, pursuant to an
advisory notice from the Administrative Office of the United States Courts pertaining to fiscal year
2011, are, for imprisonment: $2,407.78 per month; for community confinement: $2,180.27 per
month; and for supervision: $286.11 per month. The Defendant agrees to make complete financial
disclosure by truthfully filling out, at the request of the United States Attorney, a Financial Statement
(OMB-500).
8.

The Defendant understands that he is currently detained and will remain detained.

The Defendant will not request release pending sentencing and will not request voluntary surrender
following sentencing. While pending sentencing, the Defendant understands that if he commits any
offense in violation of federal, state, or local law, the Government may file additional charges and
may seek to be released from this Plea Agreement by the Court. No action taken or recommendation
made by the Government pursuant to this paragraph shall be grounds for the Defendant to withdraw
his plea.
9.

The Defendant understands that the Government may move for an order pursuant to

18 U.S.C. § 6003 requiring the Defendant to give testimony or provide other information and that

3

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 4 of 14 Page ID #218

if such order is granted and die Defendant refuses to give such testimony or other information he
may be subject to punishment for contempt
10.

The Defendant states that he has read this agreement and has discussed it with his

attorney, and understands it.
II
1.

The Defendant states that he is actually guilty and will enter a plea ofguilty to Counts

1 - 4 of the Second Superseding Indictment.
Count 1 charges Sexual Exploitation of a Minor in violation of Title 18, United States Code,
Section 2251(a) and (e). The maximum penalty that can be imposed on Count 1 is a term of
imprisonment not less than 15 years up to 30 years, a fine of $250,000, or both, and a term of
supervised release of not less than 5 years up to life.
Counts 2 and 3 charge Travel with Intent to Engage in Illicit Sexual Conduct in violation of
Title 18, United States Code, Section 2423(b). The maximum penalty that can be imposed for each
of Counts 2 and 3 is a term of imprisonment of 30 years, a fine of $250,000, or both, and a term of
supervised release of not less than 5 years up to life.
Count 4 charges Failure to Appear in violation of Title 18, United States Code, Section
3146(a)(1). The maximum penalty that can be imposed for Count 4 is a term of imprisonment of
10 years, said term to run consecutively to the sentences imposed on Counts 1 - 3, a fine of
$250,000, or both, and a term of supervised release of 3 years.
The Defendant will also be ordered to pay a special assessment of $100 per count, for a total
special assessment of $400.

4

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 5 of 14 Page ID #219

2.

The Government and the Defendant agree that the following constitutes the essential

elements of the offenses charged in the Second Superseding Indictment.
Count 1 - Sexual Exploitation of a Minor:
First:

At the time, the minor was under the age of eighteen years;

Second:

The Defendant used the minor to take part in sexually explicit
conduct for the purpose of producing a visual depiction of such
conduct; and

Third:

The visual depiction was produced using materials that had been
mailed, shipped, or transported across state lines or in foreign
commerce.

Counts 2 and 3 - Travel with Intent to Engage in Illicit Sexual Conduct
First:

The Defendant traveled in interstate commerce; and

Second:

The Defendant’s purpose in traveling in interstate commerce was to
engage in a sexual act with a minor.
Count 4 - Failure to Appear

First:

The Defendant was released pursuant to the Bail Reform Act 1966
(Chapter 27 of Title 18);

Second:

The Defendant was required to appear in Court;

Third:

The Defendant was aware of the required appearance; and

Fourth:

The Defendant willfully failed to appear as required.

The Defendant agrees and admits that his conduct violated these essential elements of the offenses
charged in Counts 1,2,3 and 4.
3.

The Government and Defendant submit to the Court that it appears under the

Sentencing Guidelines, after all factors have been considered, Defendant will have an Offense Level
of 43 and a Criminal History Category of I, whereby the sentencing range is Life imprisonment.
5

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 6 of 14 Page ID #220

However, because there is a statutory maximum sentence of 30 years’ imprisonment on each of
Counts 1,2 and 3, the effective Guideline sentencing range for Counts 1,2 and 3 is 360 months’
imprisonment. The statutory maximum sentence on Count 4 is 10 years’ imprisonment, consecutive
to the sentence imposed on Counts 1,2 and 3.
The Defendant and the Government agree, however, that the appropriate sentence to
be imposed, considering all of the factors in Title 18, United States Code, Section 3553(a), is
300 months’ imprisonment.
The Defendant and the Government further agree that, under the Sentencing Guidelines, after
all factors have been considered, the Defendant's fine range will be $25,000 to $250,000, pursuant
to U.S.S.G. §5E1.2.
4.

Defendant and the Government agree that the Guideline calculations on Count 1 are

as follows:
32

Base Offense Level per § 2G2.1:
Specific Offense Characteristics:
per 2G2.1(bX2)(A) - offense involved sexual act:

+2

per 2G2.1(b)(6) - offense involved use of interactive
computer service:

+2

Obstruction of Justice per 3C1.1:

+2

Repeat and Dangerous Sex Offender Against Minor per § 4B1.5(b):

+5

Total of above:

43

Grouping rules per § 3D (when considering GSR for Counts 2 and3):

±1

Combined Offense Level:

44

6

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 7 of 14 Page ID #221

Offense Level per § 5A app. note 2

43

Criminal History Category:

I

Guideline sentencing range:

LIFE

Guideline sentencing range with statutory maximum

360 months

5.

Defendant and the Government agree it is appropriate in this case to group Counts

2 and 3 pursuant to § 3D 1.2. The Guideline calculations for Counts 2 and 3 are as follows:
24

Base Offense Level per § 2G1.3:
Specific Offense Characteristics:
per 2G 1.3(b)(2)(B) - undue influence:

+2

per 2G1.3(b)(3) - offense involved use of interactive
computer service

+2

per 2G1.3(b)(4) - offense involved a sexual act:

+2

Obstruction of Justice per § 3C1.1:

+2

Repeat and Dangerous Sex Offender Against Minor per § 4B1.5(b):

+5

Total of above:

37

Criminal History Category:

I

Guideline sentencing range:

210-262

6.

Pursuant to § 2J1.6 Application Note 3, the Failure to Appear charged in Count 4 has

been treated under § 3C 1.1 as an obstruction of the underlying offense, and the failure to appear
count and the counts for the underlying offenses are grouped together under § 3D 1.2(c).
7.

The Government and Defendant agree that the Guideline calculations submitted

herein are not binding on the Court They merely constitute the parties’ good faith efforts to inform

7

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 8 of 14 Page ID #222

the Court of their beliefs as to the applicable Guideline sentencing range and acknowledge that it is
the Court which is ultimately responsible for determining the applicable Guideline sentencing range
after receiving the Presentence Report and giving both parties the opportunity to comment thereon.
The Defendant expressly recognizes that, regardless of the Guideline sentencing range found by the
Court, he will not be permitted to withdraw his plea.
The Government specifically reserves the right to argue for, present testimony, or otherwise
support the Probation Office's or the Court’s findings as to Offense Level and Criminal History
Category (which may be in excess of the calculations set forth herein by the Defendant and the
Government). The Defendant understands that the Sentencing Guidelines are advisory only and that
the Court has the discretion to sentence the Defendant anywhere up to the statutory maximum
sentence after consideration of the Sentencing Guidelines, and the factors set forth in 18 U.S.C. §
3553(a), including the nature and circumstances of the offenses and the criminal history and
characteristics of the Defendant.
8.

Defendant and the Government submit to the Court that it appears that the Defendant

has no criminal history points and that, therefore, his Sentencing Guidelines Criminal History
Category is I. Defendant expressly recognizes that the final criminal history calculation will be
determined bv the Court after considering the Presentence Report the views of the parties and anv
evidence submitted prior to sentencing. Defendant recognizes that, regardless ofthe criminal history
found bv the Court, he will not be able to withdraw his plea.
9.

The Defendant understands that the Government will recommend the imposition of

a fine. The Defendant understands that the Government's recommendation may be based in part on
the Defendant's projected earnings through the Inmate Financial Responsibility Program.
8

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 9 of 14 Page ID #223

10.

Defendant will cooperate fully with the United States Probation Office in its

collection ofinformation and preparation ofthe Presentence Report in this matter. Said cooperation
will include signing all releases, as requested.
11. The parties agree that a sentence of 25 years4 imprisonment is reasonable under
all the facts and circumstances of the case and the sentencing factors the Court must consider
under 18 U.S.C. § 3553(a), and the parties will make such a recommendation. The agreement
ofthe parties is not binding upon the Court or the United States Probation Office, and the Court may
impose any sentence authorized by law.
12.

The Defendant acknowledges that Title 18, United States Code, Section 3143(a)(2)

requires that upon the Court’s acceptance of a plea of guilty in this case, the Court must order the
Defendant detained pending sentencing, in the absence of exceptional circumstances as set forth in
Title 18, United States Code, Section 3145(c). The Defendant and Government agree that there are
no exceptional circumstances that would justify the Defendant’s release pending sentencing, and the
Defendant agrees not to seek release pending sentencing or following sentencing.
HI.
1.

The Defendant understands that by pleading guilty, he is waiving all appellate issues

that might have been available if he had exercised his right to trial. The Defendant states that he is
fully satisfied with the representation he has received from his counsel, that they have discussed the
Government’s case, possible defenses and have explored all areas which the Defendant has requested
relative to the Government’s case and his defense.
2.

The Defendant is aware that Title 18, Title 28 and other provisions of the United

States Code afford every defendant limited rights to contest a conviction and/or sentence.
9

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 10 of 14 Page ID #224

Acknowledging all this, and in exchange for the recommendations and concessions made by the
United States in this plea agreement, the Defendant knowingly and voluntarily waives his right to
contest any aspect of his conviction and sentence that could be contested under Title 18 or Title 28,
or under any other provision of federal law, except that if the sentence imposed is in excess of the
agreement of the parties herein, the Defendant reserves the right to appeal the reasonableness of the
sentence. The Defendant acknowledges that in the event such an appeal is taken, the Government
reserves the right to fully and completely defend the sentence imposed, including any and all factual
and legal findings supporting the sentence, even if the sentence imposed is more severe than that
recommended by the Government. Defendant knowingly and voluntarily waives his right to seek
a pardon, whether before or after his release from custody.
3.

Defendant’s waiver ofhis right to appeal or bring collateral challenges shall not apply

to: 1) any subsequent change in the interpretation of the law by the United States Supreme Court
or the United States Court ofAppeals for the Seventh Circuit, which is declared retroactive by those
Courts, and which renders the defendant actually innocent of the charges covered herein, and
2) appeals based upon Sentencing Guideline amendments which are made retroactive by the United
States Sentencing Commission (see U.S.S.G. § 1B1.10). The Government reserves the right to
oppose such claims for relief.
4.

Defendant’s waiver of his appeal and collateral review rights shall not affect the

Government’s right to appeal Defendant’s sentence pursuant to Title 18, United States Code, Section
3742(b). This is because United States Attorneys lack any right to control appeals by the United
States, through plea agreements or otherwise; that right belongs to the Solicitor General. 28 C.F.R.
§ 0.20(b).
10

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 11 of 14 Page ID #225

5.

Defendant hereby waives all rights, whether asserted directly or by a representative,

to request or receive from any Department or Agency of the United States any records pertaining to
the investigation or prosecution of this case, including without limitation, any records that may be
sought under the Freedom of Information Act, Title 5, United States Code, Section 552, or the
Privacy Act of 1974, Title 5, United States Code, Section 552a.
6.

Defendant waives all claims under the Hyde Amendment, Title 18, United States

Code, Section 3006A, for attorney’s fees and other litigation expenses arising out ofthe investigation
or prosecution of this matter.
7.

The Defendant acknowledges that the Government has provided complete discovery

compliance in this case. Defendant states that he has reviewed said discovery compliance with his
attorney.
IV.
Sex Offense Mandatory Registration. Defendant understands that by pleading guilty,
defendant will be required to register as a sex offender upon his release from prison as a condition
of supervised release pursuant to 18 U.S.C. § 3583(d). Defendant also understands that independent
of supervised release, he will be subject to federal and state sex offender registration requirements,
and that those requirements may apply throughout his life. The defendant understands that he shall
keep his registration current, shall notify the state sex offender registration agency or agencies of any
changes to defendant's name, place of residence, employment, or student status, or other relevant
information. Defendant understands that he will be subject to possible federal and state penalties
for failure to comply with any such sex offender registration requirements.

11

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 12 of 14 Page ID #226

V. Forfeiture
1.

The Defendant agrees to forfeit to the United States immediately and voluntarily the

following items pursuant to 18 U.S.C. § 2253(a)(3):
a.

a 2007 Jeep Grand Cherokee, VIN 1J8HR48N87C689206, and all accessories,
attachments, and components therein or thereon;

b.

a Verizon cellular telephone, model Droid X2, bearing serial number SJUG6250;

c.

a laptop computer.

Items (b) and (c) above are also subject to forfeiture pursuant to 18 U.S.C. § 2428(a)(1). however,
the United States may, at its discretion, proceed with the destruction of said items without
completing the forfeiture process against same. The United States may abandon forfeiture of any
of the items by filing notice of same with the Court.
2.

The Defendant agrees to forfeit all interests in the properties as described above and

to take whatever steps are necessary to pass clear title to the United States. These steps include but
are not limited to, the surrender of title, the signing of a consent decree of forfeiture, the signing of
any other documents necessary to effectuate such transfers, and the execution of withdrawals of any
claims or defenses which may have previously been asserted against the forfeiture of any of the
property. The Defendant further authorizes his attorney, Melissa Day, to execute on the Defendant’s
behalf any documents requested by the Government to effectuate the forfeitures.
If requested by the Government, all steps necessary to locate property and to pass title to the
United States shall be completed before the Defendant’s sentencing.

12

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 13 of 14 Page ID #227

The Defendant agrees that forfeiture of the Defendant’s assets shall not be treated as
satisfaction of any fine, restitution, costs of imprisonment, or any other penalty this Court may
impose upon the Defendant in addition to forfeiture.
The Defendant agrees to consent to any civil, criminal or administrative forfeiture brought
against the property described above. The Defendant waives service ofprocess or notice in any such
proceeding and agrees that an order for forfeiture may be entered in said proceeding without further
notice or hearing.
3.

The Defendant further specifically waives the following constitutional or legal rights

which he may otherwise possibly have had:
(a)

Any right to assert that the forfeiture violates the 8th Amendment of the

Constitution or otherwise constitutes an excessive fine or forfeiture or cruel and
unusual punishment.
(b)

Any right to assert that the imposition of the forfeiture constitutes jeopardy

with respect to the constitutional prohibition against double jeopardy; and the
Defendant specifically agrees that the imposition of any fine, restitution,
imprisonment, costs of imprisonment, or penalty (either judicial or administrative)
shall not be barred by the imposition ofthe forfeiture, nor shall the imposition of the
forfeiture be barred by any such fine, restitution, imprisonment, costs of
imprisonment, or penalty (either judicial or administrative).
(c)

Any requirement that the forfeiture must be commenced or completed at or

by any particular time, including but not limited to any time or date imposed by a
statute of limitations, any other statute, the doctrine of laches, or any administrative
13

Case 4:12-cr-40064-JPG Document 70 Filed 08/06/13 Page 14 of 14 Page ID #228

rule or regulation. The Defendant further specifically agrees that the Court may
immediately enter a preliminary order of forfeiture in this criminal proceeding
consistent with this plea agreement and that it is not necessary to wait for the formal
sentencing of the Defendant for the entry of said order.
VL
No matters are in dispute.

STEPHEN R. WIGGINTON
United States Attorney
y

J

lUULM'i |

Kit R. MORRISSEY or J
ANGELA SCOTT
Assistant United States Attorneys

MATTHEW staszak
Defendant"

MELISSA A. DAY or /
JUDITH A. KUENNEKE
Attorney for Defendants

Date:

-S / £

^

Date:

14

!,

fT

i

£0(3

